No. 21In the

Supreme Court of the United States
James Gatto, AKA Jim,
Petitioner,
v.
UNITED STATES OF AMERICA, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Michael S. Schachter
Counsel of Record
Casey E. Donnelly
Jordan D. Reisch
Willkie Farr & Gallagher LLP
787 Seventh Avenue
New York, NY 10019
(212) 728-8000
mschachter@willkie.com
Counsel for Petitioner

306257

i
QUESTIONS PRESENTED
1. Whether 18 U.S.C. § 1343—the federal wire fraud
statute—requires the Government to prove, consistent
with Section 1343’s statutory text, that the “object” of
the alleged wire fraud scheme was to “obtain” money or
property from the victim?
2. Whether this Court’s conclusion in United States
v. Kelly, 140 S. Ct. 1565, that “incidental” harms, even
where foreseeable, do not violate 18 U.S.C. § 1343 was
merely dicta, such that a jury need not be informed before
deliberations that such harms fall outside the bounds of
the statute?
3. Whether a “right to control” athletic scholarship
decisions constitutes “property” protected by 18 U.S.C.
§ 1343?

ii
PARTIES TO THE PROCEEDING
Petitioner James Gatto was a defendant-appellant in
the court of appeals.
Respondent United States of America was appellee
in the court of appeals.
Respondents Merl Code and Christian Dawkins were
defendants-appellants in the court of appeals.

iii
RELATED PROCEEDINGS
The proceedings directly related to this petition are:
United States of America v. James Gatto, Merl Code,
Christian Dawkins, Nos. 19-0783; 19-0786; 19-0788 (2d
Cir.), consolidated judgment entered on January 15, 2021;
and
United States of America v. James Gatto, Merl Code,
Christian Dawkins, No. 17-CR-0686 (LAK) (S.D.N.Y.),
amended judgment as to Mr. Gatto entered on June 17,
2019.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINION BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 7
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
REASONS FOR GRANTING THE PETITION . . . . 12
A.	The Second Circuit’s Determination That
Conviction Under Section 1343 Does
Not Require A Jury To Find That The
Objective of the Fraudulent Scheme Was
to “Obtain” Money or Property Created a
Split With the Seventh Circuit, Which Has
Held the Opposite, and Therefore Review
by This Court Is Warranted . . . . . . . . . . . . . . . . 14

v
Table of Contents
Page
B.	The Second Circuit’s Determination That
A Jury Does Not Need To Be Instructed
That Harm Resulting As An “Incidental
Byproduct” or “Inadvertent Consequence”
of a Defendant’s Conduct Is Insufficient
to Implicate Section 1343 Contradicts
This Court’s Precedent and Therefore
Review by This Court Is Warranted . . . . . . . . . 21
C.	The Second Circuit’s Determination
That The Universities’ “Right to Control”
Athletic Scholarship Decisions Constitutes
Property Protected By Section 1343
Is I ncon si st ent W it h T h i s Cou r t ’s
Precedent and Therefore Review by This
Court Is Warranted . . . . . . . . . . . . . . . . . . . . . . . 24
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

vi
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
F O R T H E SE C O N D C I R C U IT ,
DATED JANUARY 15, 2021 . . . . . . . . . . . . . . . . . . . 1a
Appendix B — TRANSCRIPT EXCERPT of
the UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW
YORK, DATED October 22, 2018  . . . . . . . . . . . 88a
APPENDIX C — MEMORANDUM OPINION OF
THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW
YORK, FILED FEBRUARY 28, 2018 . . . . . . . . . . 92a
Appendix d — denial of rehearing
of the united states court of
appeals for the second circuit,
	filed march 5, 2021  . . . . . . . . . . . . . . . . . . . . 120a
Appendix e — relevant statutory
	provisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 121a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Carpenter v. United States,
484 U.S. 19 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . 18, 25
Center For Immigration Studies v. Cohen,
410 F. Supp. 3d 183 (D.D.C. 2019) . . . . . . . . . . . . . . . 15
Cleveland v. United States,
531 U.S. 12 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Connecticut Nat’l Bank v. Germain,
503 U.S. 249 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Honeycutt v. United States,
137 S. Ct. 1626 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . . 19
Loughrin v. United States,
573 U.S. 351 (2014)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
McNally v. United States,
483 U.S. 350 (1987) . . . . . . . . . . . . . . . . . . . . . 18, 24, 25
Neder v. United States,
527 U.S. 1 (1999)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Scheidler v. Nat’l Org. for Women, Inc.,
537 U.S. 393 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Sekhar v. United States,
570 U.S. 729 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . 25, 26

viii
Cited Authorities
Page
Skilling v. United States,
561 U.S. 358 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . 19, 25
United States v. Baldinger,
838 F.2d 176 (6th Cir. 1988) . . . . . . . . . . . . . . . . . . . . 15
United States v. Handakas,
286 F.3d 92 (2d Cir. 2002) . . . . . . . . . . . . . . . . . . . . . . 25
United States v. Kelly,
140 S. Ct. 1565 (2020) . . . . . . . . . . . . . . . . . . . . . passim
United States v. Lanier,
520 U.S. 259 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
United States v. Rodolitz,
786 F.2d 77 (2d Cir. 1986) . . . . . . . . . . . . . . . . . . . . . . 25
United States v. Takhalov,
827 F.3d 1307 (11th Cir. 2016)  . . . . . . . . . . . . . . . . . . 15
United States v. Walters,
997 F.2d 1219 (7th Cir. 1993) . . . . . . . . . . . . . . . passim
Statutes
18 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
18 U.S.C. § 1343  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim

ix
Cited Authorities
Page
18 U.S.C. § 1344(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
18 U.S.C. § 1349  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Other Authorities
Robert A. McCormick & Amy Christian McCormick,
Myth of the Student Athlete: The College Athlete
As Employee, 81 Wash. L. Rev. 71 (2006)  . . . . . . . . 12
Jed S. Rakoff, The Federal Mail Fraud Statute
(Part I), 18 DUQ. L. REV. 771 (1980) . . . . . . . . . . . . 13
Trevor W. Morrison, Fair Warning and the
R e t r o a c t i v e Ju d i c i a l E x p a n s i o n o f
Federal Criminal Statutes, 74 S. Cal. L.
Rev. 455 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

1
INTRODUCTION
Time and again, including in last term’s unanimous
opinion in United States v. Kelly, 140 S. Ct. 1565 (2020),
this Court has cautioned federal prosecutors that 18
U.S.C. § 1343—the federal wire fraud statute—is to be
narrowly construed and not employed as a general policing
mechanism to “enforce [a prosecutor’s] view of integrity.”
Id. at 1574. If the instant case is any indication, the Court’s
repeated warnings appear to be falling on deaf ears. Here,
prosecutors in the Southern District of New York went so
far as to decide, without any input from Congress, that it
shall now be a federal crime, punishable by up to twenty
years in prison, to violate the rules of a private, voluntary
association, the National Collegiate Athletic Association
(the “NCAA”).
Petitioner James Gatto, an employee of Adidas, the
sports apparel company, was charged with federal wire
fraud because he arranged for money to be provided
from Adidas to the families of talented high school
basketball players to help recruit those athletes to play
basketball at three Adidas-sponsored Universities. In
other words, in this fraud case, the Universities were both
the intended beneficiaries of Gatto’s conduct—because
the Universities could, and did, make tens of millions of
dollars from a successful season of men’s basketball—but
also, conversely, the supposed victims of Gatto’s purported
crime.
The payments arranged by Gatto were not themselves
illegal: it is not against the law to offer a financial incentive
to a family to persuade them to send their son or daughter
to a particular college. They were “unlawful” only under

2
the “bylaws” of the NCAA and ordinarily, the punishment
for such NCAA rule-breaking was—at least until federal
prosecutors decided to intervene—paltry, with an
athlete required to sit out a few games and, potentially,
a fine waged against the team. Why federal prosecutors
suddenly determined, decades after the NCAA was
established, that the enforcement of NCAA rules was a
matter for the United States Department of Justice, and
that NCAA rule-breaking constituted conduct meriting
prison time, is a question that has remained unanswered
throughout this proceeding.
What is clear, however, is that the jury considering
Gatto’s conduct was not properly instructed. In an
attempt to wedge NCAA rule-breaking into the rubric
of federal wire fraud, the Government came up with two
alternative theories of criminality. The Government first
claimed that Gatto paid the families of the athletes for
the purpose of defrauding the Universities out of their
“right to control” scholarship decisions. Alternatively, the
Government contended that Gatto arranged the payments
to the families in order to deprive the Universities out
of the athletic scholarships that the Universities had
awarded to the athletes. According to the Government,
the Universities awarded the scholarships to the athletes
believing that the athletes were eligible for play under the
NCAA’s rules, when in fact the payments had rendered
the athletes ineligible to compete for at least a few games.
Under this Court’s Section 1343 precedent, neither
theory is viable. As its text makes plain, Section 1343
prohibits schemes to “obtai[n] money or property” by
means of “false or fraudulent pretenses, representations,
or promises.” 18 U.S.C. § 1343. The Government’s first

3
theory of liability, premised on the contention that Gatto’s
objective was to deprive the Universities of their “right
to control” athletic scholarship decisions fails because
the “right” to make a decision about the allocation of
scholarships is not itself “money” or “property” and, as
this Court has repeatedly held, Section 1343 protects only
money or property, not other “intangible rights.”
T he G over nment ’s other theor y—that Gatt o
defrauded the Universities by depriving them of athletic
scholarships—was upheld by the panel below, but at
the expense of creating a definitive split amongst the
Circuits as to what constitutes a crime under Section
1343. Indeed, if the decision below is permitted to stand,
federal prosecutors, in one of the most active Circuits
in the country, will be freed from having to prove one of
Section 1343’s most basic requirements, that is, that the
“object” of the fraudulent scheme be to “obtain” money
or property from the victim. The Second Circuit affirmed
jury instructions that erased this statutory requirement,
thereby permitting defendants charged in New York,
Connecticut and Vermont to be convicted of federal wire
fraud so long as their conduct results in a “deprivation”
of money or property to a victim, even where they did not
seek to “obtain” anything at all. Perhaps tellingly, the
panel below did not bother to explain how it justified the
elimination of an element that has been expressly included
in the statutory text for more than a hundred years.
Moreover, in order to uphold the Government’s theory
that a defendant can violate Section 1343 even where he
does not seek to “obtain” any money or property from
the victim, the Second Circuit was forced to split with the
Seventh Circuit, which has taken the opposite position and

4
held that the wire fraud statute “only” reaches schemes to
“obtain money or other property from the victim.” United
States v. Walters, 997 F.2d 1219, 1225-27 (7th Cir. 1993).
In the Seventh Circuit, the fact that a scheme may have
had the effect of “depriving” a victim of money or property
is not enough to trigger Section 1343 liability, as Section
1343’s language plainly states that only schemes to “obtain
money or property” are proscribed.
Indeed, the Seventh Circuit’s decision in Walters is
meaningful here not only because it is right on the law,
but also because the exact legal theory presented here—
that the Universities were defrauded when they awarded
athletic scholarships to athletes who could be found
ineligible for competition—was considered and rejected
by the Seventh Circuit as falling beyond the bounds of
the federal fraud statutes. At a minimum, Walters raises
significant due process concerns about the Government’s
charging decisions in this case.
Walters involved a sports agent who was charged with
mail fraud after he paid cash to college football players,
in contravention of NCAA rules, in order to recruit them
to sign with his agency. The prosecutors pursuing the
case alleged that the agent had defrauded the colleges
that the football players attended because those colleges
had awarded scholarships to the athletes believing they
were eligible for play under NCAA rules, when, in fact,
the athletes had been rendered ineligible by virtue of the
payments. But, in a unanimous opinion authored by Judge
Frank Easterbrook, the Seventh Circuit threw out the
agent’s convictions, holding that his conduct did not violate
the federal fraud statutes because he had not schemed to
“obtain” money or property from the colleges attended

5
by the football players. While the colleges may have lost
a scholarship as a result of the payments made by the
agent, they did not lose the scholarship to the agent, who
intended to profit by representing the athletes in their
future professional careers. Id. at 1227.
Had Gatto’s jury been properly instructed, consistent
with the law as required by the Seventh Circuit, Gatto
would have been acquitted because, as in Walters, there
was not a single piece of evidence suggesting that Gatto’s
objective in paying the athletes’ families was to “obtain”
athletic scholarships (or any other money or property)
from the Universities. Rather, Gatto arranged for the
payments because he wanted to see the Universities’
basketball teams excel. Because it is beyond dispute
that there is a fundamental unfairness at work when the
criminality of identical conduct depends on whether it is
federal prosecutors in Chicago or New York that happen to
be bringing the charges, this Court should grant certiorari
and resolve the conflict amongst the Circuits as to Section
1343’s elements.
This case calls for review by this Court for other
reasons as well. In choosing to charge Gatto with federal
wire fraud, the prosecutors who brought this case appear
to have missed the critical distinction that Section 1343
draws between lawful and unlawful conduct. As this Court
explicitly recognized last term in Kelly, there is a stark
difference between intended harms, which violate Section
1343, and “incidental” harms, which do not. 140 S. Ct. at
1573-74. The possibility that the NCAA would discover the
payments from Adidas and thereafter deem “ineligible”
the athletes whose families had been paid is precisely the
type of “incidental,” if foreseeable, injury that this Court

6
has found to be outside the reach of Section 1343: after
all, Gatto had no desire to see the athletes at issue sitting
on the sidelines. To the contrary, the whole point of the
payments was to get the players on the court, winning
games for the Universities.
There is every reason to believe that the jury could
have, and would have, appreciated the line between
incidental and intentional injury, had the jurors been
informed that the law distinguishes between the two. But,
despite Gatto’s explicit request that the jury be informed
that “incidental” harms are not enough to violate Section
1343, the district court refused to give that instruction and
the Second Circuit affirmed that omission. Indeed, even
after this Court issued Kelly, which was unmistakable
in its holding that where the Government proves only
“incidental” harm, Section 1343 does not apply, the Second
Circuit still refused to acknowledge that a defendant has a
right to a jury that has been instructed on that important
limitation. It should go without saying that our judicial
system simply does not work if this Court’s dictates can be
freely ignored by the nation’s judiciary. That is especially
true in matters of criminal law, where a person’s very
liberty hangs in the balance. This Court should grant
certiorari in order to rectify the errors below.
OPINION BELOW
The Second Circuit’s opinion is published at 986 F.3d
104. (Pet.App.1-87). The district court did not issue a
written opinion concerning the rejection of the proposed
jury instructions at issue in this appeal, but its order
denying Gatto’s motion to dismiss is published at 295
F. Supp. 3d 336 (S.D.N.Y. 2018) and, at least to the first

7
question presented, partially describes its view of Section
1343’s elements. (Pet.App.92-119).
JURISDICTION
On January 15, 2021, the Second Circuit issued a
divided opinion, with Judge Gerard E. Lynch dissenting
in part, and entered judgment. (Pet.App.1-87). Rehearing
was denied on March 5, 2021. (Pet.App.120). This Court
has jurisdiction pursuant to 28 U.S.C. § 1254(1). On March
19, 2020, this Court ordered that the deadline for filing
any petition for writ of certiorari be extended to 150 days
from the date of the lower court judgment, order denying
review, or order denying a timely petition for rehearing.
On July 19, 2021, while this Court rescinded the order of
March 19, 2020, it further ordered that for any case, as
here, in which lower court judgment was issued prior to
July 19, 2021, the deadline to file for a writ of certiorari
remains extended to 150 days from the date of the
judgment or order.
STATUTORY PROVISIONS INVOLVED
The relevant statutory provisions—18 U.S.C. § 1343
and 18 U.S.C. § 1349—are reproduced in the appendix to
this petition. (Pet.App.121-22).
STATEMENT
1. College basketball in the United States is
administered by the NCAA, a private, voluntary
association of American universities. (C.A.App.232-33.)
NCAA “amateurism” rules prevent college basketball
players from receiving any “pay” in connection with

8
their athletic talents, beyond an athletic scholarship to
college. (C.A.App.780-81; C.A.App.914; C.A.App.241-42.)
With limited exceptions, schools are also precluded,
under NCAA “recruiting” rules, from providing any
“inducements,” including “cash,” to prospective recruits
or their families. (C.A.App.829). The NCAA also precludes
college athletes and prospective college athletes from
earning money through employment opportunities
in the private sector, such as w ith Adidas, which
otherwise might be interested in hiring these athletes for
commercials, photo shoots, special appearances and the
like. (C.A.App.789). A violation of these rules threatens
an athlete’s “eligibility” to compete in NCAA-sponsored
athletic events. (C.A.App.241-42.)
2. Universities frequently enter into paid “sponsorship”
agreements with major shoe companies, namely Nike,
Adidas, and Under Armour, in which the shoe companies
pay the schools for the right to provide branded apparel
and uniforms to the schools’ athletic teams. (C.A.App.272;
C.A.App.303-05.) As paid sponsors, the shoe companies
are considered “representatives” of the universities
they sponsor and thus a university can be penalized
if its corporate sponsor provides any “benefit” to
prospective athletic recruits. (C.A.App.812; C.A.App.829.)
Specifically, where an athlete is deemed ineligible because
of benefits provided by a college’s corporate sponsor, the
NCAA’s Reinstatement Guidelines permit an athlete’s
eligibility to be “reinstated” after a maximum withholding
condition of 30%, meaning that, at worst, the athlete
could be prohibited from participating in approximately
30% of the regular season, which is about nine games.
(C.A.App.1826).

9
3. Gatto, a 50 year-old married father of two
teenagers, began working for Adidas when he was 23 years
old. (C.A.App.1185.) Gatto worked in Adidas’s Portland,
Oregon office, in its basketball marketing department.
(C.A.App.336-37.) One of Gatto’s job responsibilities was to
support the colleges that Adidas sponsored. (C.A.App.306.)
4. At trial, the jury learned that there was fierce
competition among Division I universities to recruit the
most talented high school basketball players. The evidence
also demonstrated that college basketball coaches often
expected the corporate sponsors of their programs, like
Adidas, to “help” recruit players. (See, e.g., C.A.App.314;
C.A.App.328; C.A.App.1181; C.A.App.547-576). The jury
learned that this recruiting “help” from Adidas, Nike
and Under Armour often came in the form of payments
to the families of talented athletes. (C.A.App.608-610,
C.A.App.462-68.)
5. The charges in this case—one count alleging a
violation of Section 1349 for conspiracy to commit wire
fraud, as well as two counts of substantive wire fraud under
Section 1343—arose in connection with payments made
by Adidas, and facilitated by Gatto, to the families of four
high school athletes in connection with their respective
recruitment to North Carolina State University, the
University of Kansas and the University of Louisville
(together, the “Universities”), each of which is sponsored
by Adidas. As described above, the Government’s case
was premised on the theory that Gatto had schemed to
defraud the Universities out of (i) athletic scholarships; or
(ii) their intangible “right to control” athletic scholarship
decisions. (C.A.App.50; C.A.App.429-30.)

10
6. At the time when the payments were made,
each of the athletes had already received scholarship
offers from the Universities, but the athletes’ family
members nevertheless sought payment from Adidas in
connection with the athletes’ recruitment. (C.A.App.207,
C.A.App.280-83, C.A.App.316, C.A.App.321-22).
7. If the NCAA had discovered the payments, the
recruits whose families had received money might have
been deemed ineligible for competition, meaning that the
school would have “wasted” an athletic scholarship on a
player who could not play for at least some of the basketball
season. But, it was undisputed by the Government that
this potential ineligibility determination was, at most, an
unintended repercussion that Gatto had no desire to see
inflicted on an Adidas-sponsored basketball team.
8. At trial, the evidence demonstrated that Gatto’s goal
in facilitating the payments from Adidas to the families
of the athletes was to help the Universities secure some
of the most highly sought after basketball recruits in
the country. As explained by Government cooperator
T.J. Gassnola, Gatto was “trying to help” the Adidassponsored Universities recruit talented players, who
would hopefully play well for the Universities’ basketball
teams and lead the schools to athletic success. (Tr. 973:4-8
(D.Ct.Dkt.255 at 16).)
9. Gatto asked for, but the district court refused to give,
an instruction informing the jury that it could not convict
unless it found that Gatto schemed to “obtain” money or
property from the Universities. (C.A.App.1205-06.) While
the Second Circuit found no error in the district court’s
omission of this element, its decision on this point is,

11
frankly, perplexing. The panel found no error in the jury
instructions, after determining that Gatto was not entitled
to an instruction stating that a defendant “must personally
obtain property from the victim to be convicted of wire
fraud.” (Pet.App.35 (emphasis added).) But, Gatto did not
ask the district court to inform the jury that he needed
to “personally” obtain property from the Universities
to be convicted; rather, he simply asked that the jury be
informed that deception does not amount to a violation of
Section 1343 unless the defendant’s object was to “obtain”
property—for himself or for someone else. Although Gatto
explained, in his petition for rehearing, that the panel
appeared to have misunderstood the instruction that Gatto
had sought, the Second Circuit denied Gatto’s request for
rehearing without any explanation or clarification as to
why it believed the instruction, as actually proposed by
Gatto, was an incorrect statement of law. (Pet.App.120).
11. Gatto also asked for an instruction that explained
to the jury that the Government needed to prove that
the alleged “money or property deprivation” to the
Universities was “a goal of [Gatto’s] plot, not just an
inadvertent consequence of it.” (C.A.App.1210 -11;
C.A.App.1351-56.) The district court refused to give any
such instruction. Although Gatto raised this instructional
failure in his appeal and even directed the panel to this
Court’s confirmation, in Kelly, that “incidental” harms do
not implicate Section 1343, see 140 S. Ct. at 1573-74, the
panel’s decision was completely silent with regard to this
significant error in the instructions. The Second Circuit
chose not to provide any rationale as to why, even after
this Court’s clear holding in Kelly, it found no error in a
jury charge that did not inform the jury that “incidental”
harms do not implicate Section 1343.

12
12. Finally, both the district court and the Second
Circuit panel below concluded that a “right to control”
athletic scholarship decisions constitutes “property”
protected by Section 1343. In so finding, the Second
Circuit simply cited to its own precedent—which has never
been endorsed by this Court—holding that “depriving
a victim of potentially valuable economic information. .
.prevents the victim from exercising its right to control
its property and can therefore support a wire fraud
conviction.” (Pet.App.39).
13. On March 5, 2021, the Second Circuit denied
Gatto’s petition for rehearing. (Pet.App.120). On April
30, 2021, the Second Circuit stayed its mandate, after
determining that Gatto’s “petition [for certiorari] would
present a substantial question” for this Court and that
there was “good cause” for a stay. United States of
America v. James Gatto, No. 19-0783, Dkt. 197 (2d Cir.);
Fed. R. App. Proc. 41(d)(1).
REASONS FOR GRANTING THE PETITION
In his partial dissent from the majority opinion,
Judge Lynch of the Second Circuit questioned whether
a “wise” prosecutor would have wasted valuable law
enforcement resources to bring this case. (Pet.App.85.)
Indeed, the media frenzy that accompanied the release
of the indictment against Gatto was fueled in large
part by the fact that it is a matter of public record that
Division I universities have racked up thousands of
NCAA violations over the last few decades, by providing
so-called “impermissible benefits” to high school athletes
to persuade them to attend schools with flagship athletic
programs. See Robert A. McCormick & Amy Christian

13
McCormick, Myth of the Student Athlete: The College
Athlete As Employee, 81 Wash. L. Rev. 71, 110, n.160
(2006); see also Report, Rice Commission on College
Basketball, reproduced at C.A.App.1514, 1531 (conclusion
by investigative committee established by the NCAA
Board of Governors and chaired by former United States
Secretary of State Condoleezza Rice, that the provision of
“impermissible benefits” to talented recruits had “been
part of landscape of pre-professional basketball for many
years,” with no intervention or concern from anyone in law
enforcement and a tepid response even from the NCAA.)
What made headlines was not the novelty of Gatto’s
conduct, but the Government’s claim that it constituted a
federal crime.
But, in fact, Gatto’s conduct did not constitute a
violation of Section 1343 and his convictions can only be
understood as the result of a troubling jury charge that
misled the jurors about the applicable law. Given federal
prosecutors’ predilection for using the wire and mail fraud
statutes—which have famously been termed a prosecutor’s
“Stradivarius, [his] Colt 45, [his] Louisville Slugger, [his]
Cuisinart. . .and [his] true love”1— this Court should grant
certiorari and rectify the errors below.

1. Jed S. Rakoff, The Federal Mail Fraud Statute (Part I), 18
DUQ. L. REV. 771, 771 (1980).

14
A. The Second Circuit’s Determination That Conviction
Under Section 1343 Does Not Require A Jury To
Find That The Objective of the Fraudulent Scheme
Was to “Obtain” Money or Property Created a
Split With the Seventh Circuit, Which Has Held
the Opposite, and Therefore Review by This Court
Is Warranted.
The text of the wire fraud statute provides that
schemes to “obtai[n] money or property by means of false
or fraudulent pretenses, representations, or promises” are
unlawful. 18 U.S.C. § 1343 (emphasis added). Yet, when
Gatto asked that the jury be instructed as follows, his
request was denied:
In addition to proving that a representation was
false or fraudulent and related to a material
fact, the Government must also prove that the
purpose of the alleged scheme to defraud the
Universities was to obtain money or property
from these Universities.
(C.A.App.1205-06.) The district court refused to give Gatto’s
requested instruction because it disagreed that Section
1343 requires a defendant to have schemed to “obtain”
money or property from the victim and instead informed
the jury that a scheme to “deprive” the Universities
of money or property was sufficient. (C.A.App.387
(overruling Gatto’s request for an “obtaining” instruction);
C.A.Sp.App.18-19 (District Court: “The question is not
whether defendants are alleged to have obtained money
or property from the [U]niversities, but whether they are
alleged to have conspired to deprive the [U]niversities
of money or tangible or intangible property.”) (emphasis

15
added); accord Pet.App.89 (instructing the jury that it
could find the first element of wire fraud satisfied if it
concluded that the “scheme contemplated depriving the
victim . . . of money or property.”)). The panel decision
found no error in the district court’s omission of Section
1343’s “obtaining” element.
But, in finding no error in the district court’s charge,
the Second Circuit explicitly parted ways with the
interpretation of Section 1343 set forth by the Seventh
Circuit in Walters. 2 As described above, in Walters,
the defendant, a sports agent named Norby Walters,
participated in a scheme to induce college football players
to sign contracts promising to retain Walters should the
players turn professional. 997 F.2d at 1221. While NCAA
rules prevent college athletes from signing with agents,
Walters provided the students with cash, cars, and other
valuables to persuade them to sign. Id. The Government
2. The Second Circuit’s decision is not only at odds with the law
of the Seventh Circuit, but also the law of numerous other Circuits
that have come to the same conclusion as Judge Easterbrook in
Walters and found that the mail and wire fraud statutes proscribe
only fraudulent schemes to “obtain money or property” from the
victim. See United States v. Baldinger, 838 F.2d 176, 180 (6th Cir.
1988) (dismissing mail fraud indictment because the statute only
“reach[es] schemes that have as their goal the transfer of something
of economic value to the defendant”); United States v. Takhalov, 827
F.3d 1307, 1313 (11th Cir. 2016) (wire fraud only includes schemes “to
obtain, by deceptive means, something to which the defendant is not
entitled”); see also Center For Immigration Studies v. Cohen, 410
F. Supp. 3d 183, at n. 2 (D.D.C. 2019) (explaining that although the
D.C. Circuit has not yet “ruled” on the question of whether Section
1343 requires the Government to prove that the defendant intended
“to obtain money or property” from the scheme, “the circuit courts
currently stand divided” on the issue).

16
charged Walters with mail fraud, alleging that Walters
had defrauded the universities that the football players
attended by “causing the universities to pay scholarship
funds to athletes who had become ineligible as a result
of the agency contracts.” Id. The Government argued
that the object of Walters’s scheme was to “deprive” the
universities of “money or property” because, had the
improper benefits been discovered, the universities “would
have stopped [giving] their scholarships [to the athletes],
thus saving money.” Id. at 1224.
The Seventh Circuit reversed Walters’s convictions.
One ground for reversal, which Judge Easterbrook
characterized as a “deep[] problem” for the Government,
was that Walters’s scheme was not devised to “obtain”
money or property from the universities, the purported
victims. Id. at 1224. The prosecutors pursuing the case
against Walters argued, as have the prosecutors here,
that there is no “obtaining” requirement in the statute,
but rather that “it is enough that the victim lose.” Id.
(describing the prosecutors’ position that what the
“schemer hopes to gain plays no role in the definition
of [a mail fraud] offense.”). In deciding the issue, the
Seventh Circuit acknowledged that “[n]one of the Supreme
Court’s mail fraud cases deal[] with a scheme in which the
defendant neither obtained nor tried to obtain the victim’s
property.” Id. at 1225. Nevertheless Judge Easterbrook
reasoned, based on a textual analysis, that the “scheme
or artifice to defraud” clause and the “obtaining money
or property” clause of the statute must be read together.
Id. at 1227. The Seventh Circuit therefore held that
“only a scheme to obtain money or other property from
the victim” violates the mail and wire fraud statutes. Id.
(emphasis added.) On the other hand, a “deprivation” to

17
the victim “is a necessary, but not a sufficient, condition
of [wire] fraud.” Id.
Indeed, Judge Easterbrook, in Walters, presented a
hypothetical that demonstrates why a scheme to “obtain”
money or property is a required element of wire fraud and
why a scheme to “deprive” a victim of money or property
is insufficient to violate the statute. Id. at 1224. Consider,
suggested Judge Easterbrook, a scenario in which Person
A sends Person B an invitation to a surprise party for their
mutual friend, Person C. Id. Person B drives his car to the
location specified in the invitation. Id. But, “there is no
party; the address is a vacant lot; B is the butt of a joke.”
Id. Judge Easterbrook noted that if the law was as the
prosecutors in Walters had urged, and a “deprivation” of
money or property was sufficient to make out a wire fraud
violation, the prankster could be criminally prosecuted,
given that (i) the invitation was sent by mail; (ii) Person
B was “out of pocket” the cost of gasoline; and (iii) there
was a material misrepresentation about the existence of
the party. Id. Contrary to the expansive view encouraged
by the Justice Department, the Seventh Circuit found
that the practical joker could not be prosecuted because
he had not schemed to “obtain” money or property from
Person B, the victim. Id.
While the Second Circuit below summarily dismissed
the Seventh Circuit’s decision in Walters by claiming that
it was not “persuaded by the out-of-circuit” decision,
see Pet.App.37, in fact, it is the Seventh Circuit, not the
Second Circuit, that has correctly interpreted Section
1343. Bedrock principles of statutory interpretation
govern here and confirm that Section 1343 reaches only
schemes to “obtain” money or property from the victim

18
and thus, that the jury considering Gatto’s conduct should
have been instructed accordingly. When “interpreting a
statute, a court should always turn first to one, cardinal
canon before all others,” namely, that “courts must
presume that a legislature says in a statute what it means
and means in a statute what it says there.” Connecticut
Nat’l Bank v. Germain, 503 U.S. 249, 253-54 (1992); Neder
v. United States, 527 U.S. 1, 20, 23 (1999) (in considering
the elements of a statute, the court must “first look to
the text of the statute[] at issue to discern whether [it]
require[s] [the disputed element]”). “When the words of
a statute are unambiguous, then, this first canon is also
the last: judicial inquiry is complete.” Connecticut Nat’l
Bank, 503 U.S. at 254.
It is hard to come up with a persuasive argument
that the text of Section 1343 is ambiguous. As this Court
explained in Kelly, a defendant violates Section 1343 “only
if an object of [his] dishonesty was to obtain the [victim’s]
money or property,” exactly as the statute’s text provides.
140 S. Ct. at 1568; id. at 1572 (“fraudulent schemes violate
[§ 1343] only when, again, they are ‘for obtaining money
or property’”) (emphasis added); 1574 (the “property fraud
statutes…bar only schemes for obtaining property”)
(emphasis added); see also Carpenter v. United States, 484
U.S. 19, 25 (1987) (after this Court’s decision in McNally
v. United States, 483 U.S. 350 (1987), the requirement
that the defendant “obtain…money or property from the
[victim]” is a “necessary element” of wire fraud). 3
3. In fact, in Kelly, this Court cited approvingly to Walters,
and specifically, to the “practical joke” analogy advanced by Judge
Easterbrook when he described why schemes to “deprive” a victim
of money or property do not violate the mail and wire fraud statutes,
but schemes to “obtain” money or property from the victim do. See
140 S. Ct. at 1573, n.2.

19
The verb “obtain” does not have multiple meanings.
Rather, the word “obtain,” both today and in 1909, when
that word was added to the mail fraud statute, see Act
of Mar. 4, 1909, ch. 321, § 215, 35 Stat. 1130, means “[t]o
get hold of by effort; to gain possession of; to procure; to
acquire, in any way.” See Webster’s New International
Dictionary 1485 (1917); see Black’s Law Dictionary 1297
(2019) (“to bring into one’s own possession; to procure,
esp[ecially] through effort.”). Indeed, this Court confirmed
this point when it decided Loughrin v. United States and
explained that the phrase “to obtain” in the bank fraud
statute, 18 U.S.C. § 1344(2), requires the Government to
prove that the “defendant intended to obtain” money or
property from the victimized financial institution, exactly
as the plain language of the statute suggests. 573 U.S.
351, 356 (2014); see also Honeycutt v. United States, 137 S.
Ct. 1626, 1632-33 (2017) (utilizing plain meaning canon of
construction to interpret “obtain” both today and when the
forfeiture statute was passed and concluding that “obtain”
means “to come into possession of” or to “get or acquire.”).
To be sure, many of this Court’s cases also speak of a
“deprivation” to the victim. See, e.g., Cleveland v. United
States, 531 U.S. 12, 18-19 (2000) (explaining the Court’s
conclusion that the “original impetus behind the mail fraud
statute was to protect the people from schemes to deprive
them of their money or property.”). But, that is because,
as this Court explained in Skilling v. United States, in
almost all cases, “the victim’s loss of money or property
supplied the defendant’s gain, with one the mirror image
of the other.” 561 U.S. 358, 400 (2010) (contrasting “money
or property” frauds under § 1343 with “honest services”
frauds under § 1346). In other words, in a proper wire
fraud prosecution, the “deprivation” to the victim is the

20
property “obtained” by the defendant. Hence, the words
can be, and are, used interchangeably. But this Court has
never held that a scheme in which the defendant neither
obtained, nor tried to obtain, the victim’s property, is
actionable under Section 1343. The Second Circuit’s
conclusion that such a scheme falls under Section 1343’s
auspices is both contrary to the statutory text and lacks
support in the more than one hundred years of this Court’s
precedents concerning the mail and wire fraud statutes.
Circuit splits, especially on issues of federal criminal
law, pose serious due process concerns, as ordinary
citizens have no ability to assess “which circuit has the
better approach.” Trevor W. Morrison, Fair Warning
and the Retroactive Judicial Expansion of Federal
Criminal Statutes, 74 S. Cal. L. Rev. 455, 495 (2001); see
also United States v. Lanier, 520 U.S. 259, 269 (1997)
(recognizing that “disparate decisions in various Circuits
might leave the law [so] insufficiently certain even on a
point widely considered” that a defendant would not have
adequate warning that his conduct was criminal). This
Court should grant certiorari and clarify, for the benefit
of both the lower courts and prosecutors looking to test
the boundaries of the federal fraud statutes, that Section
1343 means what it says and proscribes only schemes
intended to “obtain” money or property from the victim.

21
B. The Second Circuit’s Determination That A
Jury Does Not Need To Be Instructed That
Harm Resulting As An “Incidental Byproduct”
or “Inadvertent Consequence” of a Defendant’s
Conduct Is Insufficient to Implicate Section 1343
Contradicts This Court’s Precedent and Therefore
Review by This Court Is Warranted.
In Kelly, this Court found that interference with
property cannot support a Section 1343 conviction if it is
the “incidental byproduct” of the alleged scheme. Rather,
that interference must be the scheme’s “objective.” 140 S.
Ct. at 1573-74. Kelly involved a scheme to realign lanes on
the George Washington Bridge in order to impose political
retribution on the mayor of Fort Lee, New Jersey. Id. at
1568-70. The defendants developed a “cover story” that
the lane realignment was part of a “traffic study” and Port
Authority employees spent time collecting data on traffic
conditions and serving as toll collectors. Id.
The Government contended that defendants had
committed wire fraud against the Port Authority because
their lane-closing scheme wasted the time and labor of the
Port Authority’s employees. Id. at 1572. This Court held,
however, that this waste of Port Authority resources was
not enough to violate Section 1343 because the “object”
of defendants’ scheme was “never to get the employees’
labor,” but rather to “impede access from Fort Lee to
the George Washington Bridge.” Id. at 1573-74. In other
words, the wasted employee labor was “an incidental,”
if foreseeable, “byproduct” of the defendants’ scheme to
cause political retribution. Id. This Court confirmed that
unless the “aim” of defendants’ scheme was to obtain the
employees’ labor, the defendants “could not have violated
the…wire fraud [statute].” Id. at 1574.

22
Kelly thus provides that losses that occur “incidentally”
as a “byproduct” of a defendant’s actions—such as, in this
case, scholarship funds awarded to a recruit later deemed
ineligible to compete—are insufficient to implicate Section
1343. Id. Kelly also proves that the district court erred
when it rejected Gatto’s proposed instruction, which would
have made this very point: “The [G]overnment cannot
satisfy its burden on this element by merely demonstrating
that the defendant you are considering participated in
the scheme with some knowledge or recognition of its
capacity to cause harm or deprivation to the Universities.
Instead, the [G]overnment must prove that the defendant
acted with the specific purpose of causing some financial
harm or property loss to the Universities. The money or
property deprivation must be a goal of the plot, not just
an inadvertent consequence of it.” (C.A.App.1210-11;
C.A.App.1351-56 (emphasis added).)
In this case, the financial aid awarded to the athletes
was entirely “incidental” to Gatto’s goal: ensuring that the
athletes committed to play basketball for the Universities
that Adidas sponsored. It was of no moment to Gatto
whether the athletes received an athletic scholarship,
took out student loans, convinced a wealthy relative to pay
their tuition, or even used the monies provided by Adidas
to pay for college—so long as the athletes would end up
playing basketball for the Universities. In fact, for every
athlete where Gatto facilitated payments to the family,
the Universities had already offered scholarships to the
athlete before Gatto became involved. Put differently,
Gatto could not possibly have had the goal of causing the
Universities to do something they had already decided to
do. There was indeed no evidence—none whatsoever—
that Gatto gave a moment’s consideration to whether a

23
basketball player received a scholarship. There were no
emails, text messages, or conversations in which Gatto
said one word about any scholarships, or suggested that
his object was to obtain them. And although the panel
noted that the “scheme depended on the Universities
awarding ineligible student-athletes athletic based aid,”
see Pet.App.17 (emphasis added), that contention is both
factually incorrect and legally irrelevant.
Moreover, even if the recruits did need financial
aid in order to attend the Universities, that fact does
not magically convert “financial aid” for those students
into the “goal” of Gatto’s conduct. Indeed, in Kelly, this
Court accepted that the defendants’ scheme could not
have succeeded without the labor of the Port Authority
employees, but still found that the use of that labor was
“incidental” to defendants’ ultimate objective of creating
a political headache for the mayor of Fort Lee. See 140 S.
Ct. at 1573-74 (even if “all of this work [by Port Authority
employees] was ‘needed’ to realize the final plan—to
accomplish what [defendants] were trying to do with the
Bridge. . .it would make no difference” under Section
1343 because “the cost of the employee hours spent
on implementing [defendants’] plan was its incidental
byproduct” and a “property fraud conviction cannot stand
when the loss to the victim is only an incidental byproduct
of the scheme.”).
As Kelly demonstrates, the distinction between
foreseeable harms imposed on a victim as a “byproduct”
of the defendant’s actions, and harm that is purposefully
inflicted on the victim, serves as the line between lawful
and unlawful conduct. There is no justification for the
district court’s failure to draw that important distinction

24
for the jury. The panel’s conclusion that there was no defect
in the instructions is clear error that warrants review
by this Court. Indeed, granting certiorari will give this
Court an opportunity to reiterate, to the lower courts, that
the decision in Kelly was not simply advisory, but rather
constitutes binding precedent that both the judiciary and
federal prosecutors are required to respect.
C. The Second Circuit’s Determination That The
Universities’ “Right to Control” Athletic Scholarship
Decisions Constitutes Property Protected By
Section 1343 Is Inconsistent With This Court’s
Precedent and Therefore Review by This Court Is
Warranted.
Finally, this case raises the important question of
whether a “right to control” money or property is itself
a cognizable property right protected by Section 1343.
Below, Gatto consistently objected to the Government’s
“right to control” theory of Section 1343 liability and
argued that the “ability to make an informed economic
decision” is not property and the wire fraud statute only
reaches schemes to defraud a victim of “money or property.”
(C.A.App.1300-1305.) The Second Circuit, however, upheld
the Government’s “right to control” theory, on the basis
that its own precedents have permitted the Government
to bring “right to control” cases. (Pet.App.41).
The concept that the mail and wire fraud statutes
protect a person’s “ability to make an informed economic
decision” is a product of Second Circuit case law, from
the pre-McNally era, in which “intangible rights” of
all manner and means, were seen as falling within the
auspices of the mail and wire fraud statutes. See, e.g.,

25
United States v. Rodolitz, 786 F.2d 77, 80-81 (2d Cir. 1986)
(pre-McNally decision, utilizing right to control intangible
right theory); see also United States v. Handakas, 286
F.3d 92, 102 (2d Cir. 2002) (surveying the pre-McNally
line of mail and wire fraud cases prosecuted under the
“intangible rights” doctrine).
But, in 1987, this Court decided McNally and “stopped
the development of the intangible-rights doctrine in
its tracks.” Skilling, 561 U.S. at 401. McNally rejected
the argument that the mail fraud statute reached the
“intangible right” to “good government” and held that the
mail fraud statute only protects people from schemes to
defraud them out of “money or property.” 483 U.S. at 355.
In the term immediately following McNally, this Court
sought to clarify what it had meant by “money or property”
in McNally. Carpenter v. United States confirmed that
although “intangible rights” generally did not fall within
the purview of the statute, an intangible “property”
interest could. 484 U.S. at 25-27 (emphasis added). In
Carpenter, this Court found that the “confidential business
information” of the Wall Street Journal constituted
a property interest because that information was the
newspaper’s “stock in trade,” meaning, the asset it used
to generate revenue. Id. at 26.
Carpenter’s holding is sensible, because the confidential
business information appropriated by the defendant had
independent economic value to the Wall Street Journal.
An intangible asset is property when it is “transferable—
that is, capable of passing from one person to another” or
capable of being “exercised, transferred, or sold.” Sekhar
v. United States, 570 U.S. 729, 732 (2013) (emphasis in
original). In this case, however, the Universities’ “ability

26
to make an informed economic decision” about athletic
scholarships is not property, because it is not an interest
that holds any independent economic value. Indeed, the
witness called on behalf of the University of Louisville
testified that Louisville does not even consider the
awarding of a scholarship to be a “business decision.”
(C.A.App.172).
This Court’s dicta strongly suggests that the “right
to control” theory falls beyond the reach of Section 1343.
See, e.g., Scheidler v. Nat’l Org. for Women, Inc., 537 U.S.
393, 402 (2003) (“We need not now trace what are the outer
boundaries of extortion liability under the Hobbs Act, so
that liability might be based on obtaining something as
intangible as another’s right to exercise exclusive control
over the use of a party’s business assets.”) (emphasis
added.) In Kelly, this Court cast further doubt on the
validity of the theory. 140 S. Ct. at 1569-73. In Kelly, the
Government claimed that the Port Authority’s “control”
over the Bridge’s lane allocation was “property,” such that
defendants’ scheme to “commandeer” that right violated
Section 1343. Id. at 1569. This Court squarely rejected the
Government’s argument, after explaining that the right to
“control” access to the Bridge was not “property.” Id. at
1572-73. While defendants had “exercised” for themselves
the Port Authority’s “regulatory rights of allocation,
exclusion, and control,” such rights were not “property”
protected by Section 1343. Id.
In other words, this Court’s decision in Kelly is
entirely consistent with this Court’s earlier holding in
Sekhar v. United States, which held that an intangible
asset is property when it is “transferable—that is, capable
of passing from one person to another” or capable of being

27
“exercised, transferred, or sold.” 570 U.S. at 732, 734, 736
(emphasis in original). A university’s “right to control”
scholarship decisions is not an asset that is capable of
being “exercised, transferred, or sold,” see id., and for
that reason, Gatto should never have been indicted on a
“right to control” theory of Section 1343 liability.
This Court, as it has so many times before, should
grant certiorari to reiterate that Section 1343’s boundaries
are well-defined and cannot be expanded to suit the whims
of prosecutors looking to enforce their own sense of ethics
via federal criminal law.
CONCLUSION
The petition for a writ of certiorari should be granted.
Dated: New York, New York
	August 2, 2021
			Respectfully submitted,
Michael S. Schachter
Counsel of Record
Casey E. Donnelly
Jordan D. Reisch
Willkie Farr & Gallagher LLP
787 Seventh Avenue
New York, NY 10019
(212) 728-8000
mschachter@willkie.com
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE SECOND
CIRCUIT, DATED JANUARY 15, 2021
August Term 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket Nos. 19-0783-cr; 19-0786-cr; 19-0788-cr
UNITED STATES OF AMERICA,
Appellee,
v.
JAMES GATTO, aka Jim, MERL CODE,
CHRISTIAN DAWKINS,
Defendants-Appellants.
March 13, 2020, Argued;
January 15, 2021, Decided
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF NEW YORK.
Before: Lynch and Chin, Circuit Judges,
and Engelmayer, District Judge.*
* Judge Paul A. Engelmayer, of the United States District
Court for the Southern District of New York, sitting by designation.

2a
Appendix A
Consolidated appeals from judgments of the United
States District Court for the Southern District of New
York (Kaplan, J.), convicting defendants-appellants of wire
fraud and conspiracy to commit wire fraud in violation
of 18 U.S.C. §§ 1343, 1349. The government alleged that
defendants-appellants engaged in a scheme to defraud
universities of athletic-based financial aid when they made
secret cash payments to the families of college basketball
recruits, thereby rendering the recruits ineligible to play
for the universities. On appeal, defendants-appellants
contend that there was insufficient evidence to sustain
their wire fraud convictions. Additionally, they challenge
several of the district court’s evidentiary rulings as well
as portions of its instructions to the jury.
A ffirmed.
Judge Lynch Concurs in Part and Dissents in Part
in a separate opinion.
Chin, Circuit Judge:
In this case, defendants-appellants James Gatto,
Merl Code, and Christian Dawkins (“Defendants”) were
convicted of engaging in a scheme to defraud three
universities by paying tens of thousands of dollars to the
families of high school basketball players to induce them to
attend the universities, which were sponsored by Adidas,
the sports apparel company, and covering up the payments
so that the recruits could certify to the universities that
they had complied with rules of the National Collegiate
Athletic Association (the “NCAA”) barring studentathletes and recruits from being paid.

3a
Appendix A
At trial, Defendants admitted that they engaged in
the scheme and broke NCAA rules, but argued that what
they did was not criminal. On appeal, they contend that the
government failed to prove that they intended to defraud
the universities -- North Carolina State University (“N.C.
State”), the University of Kansas (“Kansas”), and the
University of Louisville (“Louisville”) (collectively, the
“Universities”) -- and that their intent instead was to help
the Universities by bringing them top recruits to ensure
winning basketball programs. They contend that, “in the
real world, . . . universities engage in an all-out arms race
to recruit the best talent, motivated by the tens of millions
of dollars that can be earned each year by a successful
men’s basketball program,” Appellants’ Br. at 98 (internal
quotation marks omitted), and that they “broke NCAA
rules out of a genuine desire to see the Universities’
basketball teams succeed,” Appellants’ Br. at 96. They
argue that under-the-table payments to student-athletes
are widespread in college sports, and that, indeed, many
college coaches are aware of and endorse the practice.
And they argue, as they did in their opening statements
at trial, that “[t]he kids on the court, . . . the ones whose
blood, sweat and tears is making this game a billion dollar
industry, they are not allowed to earn a dime.” App’x at
107.
We have no doubt that a successful men’s basketball
program is a major source of revenue at certain major
universities, but we need not be drawn into the debate over
the extent to which college sports is a business.1 Instead,
1. We are mindful of the fair concerns raised in this respect
by Judge Lynch in his separate opinion. Nonetheless, as he

4a
Appendix A
our task is to determine whether the government proved
beyond a reasonable doubt that Defendants knowingly
and intentionally engaged in a scheme, through the use
of wires, to defraud the Universities of property, i.e.,
financial aid that they could have given to other students.
We conclude that the government did. We also reject
Defendants’ arguments that the district court abused
its discretion in its evidentiary rulings and committed
reversible error in its instructions to the jury. Accordingly,
we affirm.
BACKGROUND
On appeal from a conviction following a jury trial, the
“facts are drawn from the trial evidence and described in
the light most favorable to the government.” United States
v. Wilson, 709 F.3d 84, 85 (2d Cir. 2013).

acknowledges, this case is not the proper vehicle for resolving the
longstanding, controversial debate over whether college athletes
should be paid. For a history of that debate, see generally W.
Burlette Carter, The Age of Innocence: The First 25 Years of
the National Collegiate Athletic Association, 1906 to 1931, 8
Vand. J. Ent. & Tech. 211 (2006) (outlining the origins and early
controversies of NCAA amateurism); Christopher M. Parent,
Forward Progress? An Analysis of Whether Student-Athletes
Should Be Paid, 3 Va. Sports & Ent. L.J. 226 (2004) (discussing
the desirability and feasibility of paying student-athletes); see also
Alfred Dennis Mathewson, The Eligibility Paradox, 7 Jeffrey S.
Moorad Sports L.J. 83, 86 n.11-12 (2000) (citing scholarship against
and in support of amateurism in the NCAA).

5a
Appendix A
I.

The Landscape

The NCAA is a private organization that oversees
collegiate sports in America. It promulgates rules that
its member universities must follow, among which is
the requirement that all student-athletes must remain
amateurs to be eligible to compete for their schools. This
means that the student-athletes --and their families -- may
not accept payments of any form for the student-athletes’
playing or agreeing to play their sport. This rule extends
from the time when the student-athletes are still in high
school and are being recruited to play at the collegiate
level.
There are, however, exceptions. Colleges are
permitted, for example, to offer athletic-based aid to a
certain number of student-athletes, to cover tuition, room,
and board. And the schools themselves are permitted to
enter into sponsorship agreements with sports apparel
brands, which allow them to provide their student-athletes
with clothing and footwear that they receive from their
corporate sponsors. Essentially, these sponsorship
agreements are marketing deals. Major sports apparel
brands, including Adidas, Nike, and Under Armour, enter
into such contracts to promote their brands. Under these
agreements, student-athletes must wear the brand of
the company their school has partnered with when they
compete for their school -- that is, at practice and during
games.

6a
Appendix A
II. The Scheme
Gatto was Adidas’s director of global sports marketing
for basketball. He managed the sports marketing budget,
and part of his job entailed overseeing the relationship
that Adidas had with various schools, including N.C. State,
Kansas, and Louisville. This included helping to ensure
the success of the sponsorship agreements Adidas signed
with the Universities pursuant to which Adidas paid the
Universities for the right to provide their NCAA sports
teams with Adidas apparel.
Gatto worked with Code and Thomas Joseph Gassnola,
both Adidas consultants. He also worked informally with
Dawkins, an aspiring sports agent, and Munish Sood, a
financial advisor. Together, these men paid the families of
top-tier high school basketball recruits -- including Dennis
Smith Jr., Billy Preston, and Brian Bowen Jr. (collectively,
the “Recruits”) -- to entice those players to enroll at one
of the Universities. This activity violated NCAA rules,
and if the NCAA were to discover the payments, the
players would not be permitted to play in games and the
Universities would be subject to penalties. As a result,
Defendants and those who assisted them concealed these
payments by falsifying Adidas invoices to make it seem as
though the payments were going to youth basketball teams
affiliated with the Amateur Athletic Union (“AAU”), a nonprofit, multi-sport organization that, among other things,
facilitates youth basketball tournaments. In reality, the
money was being funneled through AAU teams with
which some Defendants were affiliated to the families
of top basketball prospects. In addition to creating fake

7a
Appendix A
expense reports to mask these payments, Defendants
used phones that were not registered in their names while
communicating with the Recruits’ families.
Per the NCAA bylaws, every member institution
must certify that its prospective student-athletes are
amateurs and thus eligible to compete. Consequently, the
Universities required all their recruits to sign paperwork
attesting that they were aware of and in compliance with
the NCAA bylaws. By signing the certifications, the
recruits affirmed, among other things, that they had not
used their “athletics skill (directly or indirectly) for pay in
any form in that sport.” App’x at 780. A recruit’s athleticbased aid was contingent upon his certifying his eligibility.
Those in charge of compliance at the Universities
explained that they would have never awarded athleticbased aid to the Recruits had they known they were
ineligible to compete, and the head coaches’ contracts
required the coaches to be stewards of the NCAA rules
and report any suspected violations.
A.

N.C. State

Smith verbally committed to play basketball for N.C.
State in September 2015. At the time, he was one of the
top recruits in North Carolina, but, according to Gassnola,
there were rumors that he was going to change his mind
about which college he would attend. To ensure that
Smith enrolled at N.C. State, Gassnola gave the Smith
family $40,000 in the Fall 2015. He was reimbursed by
Adidas via Gatto, who filed false invoices to facilitate the
repayment. Shortly after the Smith family received the

8a
Appendix A
$40,000 payment, Smith signed forms enrolling at N.C.
State indicating that he was compliant with the NCAA
eligibility rules. He played one season at N.C. State before
being selected as the ninth overall pick in the 2017 NBA
Draft.
B. Kansas
Preston verbally committed to play for Kansas in Fall
2016. After Preston committed, however, Gassnola heard
that the Preston family was accepting money from sports
agents and financial advisors, thereby putting Preston’s
eligibility in jeopardy. Because, according to Gassnola,
he thought that he was better-equipped to prevent illicit
payments from being discovered, Gassnola arranged to
pay the Preston family to stop them from taking money
from others and preserve Preston’s NCAA eligibility.
With Gatto’s permission, Gassnola paid the Preston family
around $50,000. Gassnola paid the money and then, with
the help of Gatto, submitted false AAU expense reports
to Adidas for reimbursement. In November 2016, Preston
signed forms indicating that he was compliant with the
NCAA eligibility rules. His ineligibility, however, was
discovered, and he never played for Kansas.
C.

Louisville

Bowen committed to play for Louisville in May 2017.
Around the same time, Bowen’s family agreed to accept
$100,000 from Adidas, to be paid in four installments.
These payments were to be funneled through an AAU
program with which Code was affiliated. On June 1, 2017
and June 9, 2017, Bowen signed forms accepting athletic-

9a
Appendix A
based aid and indicating that he was compliant with the
NCAA eligibility rules. Around a month later, on July
13, 2017, Bowen’s father was paid the first installment
of $25,000. Defendants were arrested before any other
payments were made, and Bowen, whom Louisville decided
to withhold from competition, withdrew from Louisville
after one semester to play professional basketball.
III.

Procedural History

Defendants were charged in a superseding indictment
filed on August 14, 2018 with wire fraud and conspiracy to
commit wire fraud for the role they played in recruiting
Smith, Preston, and Bowen. Trial began on October 1,
2018. Defendants objected to certain of the district court’s
evidentiary rulings as well as to portions of its instructions
to the jury. On October 24, 2018, the jury found Defendants
guilty of wire fraud and conspiracy to commit wire fraud.
On January 17, 2019, the district court issued an opinion
explaining some of its evidentiary rulings. Defendants
were sentenced in March 2019 -- Gatto principally to nine
months’ imprisonment and Code and Dawkins principally
to six months’ imprisonment each. The district court also
ordered Defendants to pay restitution to the Universities
for their actual losses in awarding athletic scholarships
to the Recruits.
This appeal followed.
DISCUSSION
On appeal, Defendants raise three principal arguments:
(1) there was insufficient evidence to sustain their wire

10a
Appendix A
fraud and conspiracy to commit wire fraud convictions;
(2) the district court abused its discretion in excluding
evidence; and (3) the district court erroneously instructed
the jury. We address these issues in turn.
I.

Sufficiency of the Evidence
A.

Applicable Law

“We review the sufficiency of the evidence de novo.”
United States v. Anderson, 747 F.3d 51, 59 (2d Cir. 2014).
A defendant “bears a heavy burden” when he tries to
“overturn a jury verdict on sufficiency grounds,” as
we draw all reasonable inferences in the government’s
favor and defer to the jury when there are “competing
inferences.” Id. at 59-60 (internal quotation marks
omitted). A challenge to the sufficiency of the evidence fails
if “any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.” Jackson
v. Virginia, 443 U.S. 307, 319, 99 S. Ct. 2781, 61 L. Ed.
2d 560 (1979).
To convict a defendant of wire fraud, the government
must prove beyond a reasonable doubt: “(1) a scheme to
defraud, (2) money or property as the object of the scheme,
and (3) use of the . . . wires to further the scheme.” United
States v. Binday, 804 F.3d 558, 569 (2d Cir. 2015); see
also 18 U.S.C. § 1343. Here, the parties do not dispute
the third element. 2
2. Indeed, Defendants were recorded discussing the scheme
over the phone, and they emailed about creating invoices to

11a
Appendix A
As to the “scheme to defraud” element, there must
be “proof that defendants possessed a fraudulent intent.”
United States v. Starr, 816 F.2d 94, 98 (2d Cir. 1987).
Accordingly, defendants must either intend to harm their
victim or contemplate that their victim may be harmed.
Id. (“Although the government is not required to prove
actual injury, it must, at a minimum, prove that defendants
contemplated some actual harm or injury to their victims.
Only a showing of intended harm will satisfy the element
of fraudulent intent.”). Although as a general matter
“contemplate” can mean either “to think about” or “to
have in view as a purpose,” we have clarified that only
the latter definition comports with the “fraudulent intent”
requirement for conviction. United States v. Gabriel, 125
F.3d 89, 97 (2d Cir. 1997). This distinction often “poses
no additional obstacle for the government” because
“fraudulent intent may be inferred from the scheme
itself” if “the necessary result of the actor’s scheme is to
injure others.” United States v. D’Amato, 39 F.3d 1249,
1257 (2d Cir. 1994) (internal quotation marks omitted).
Further, “[i]ntent may be proven through circumstantial
evidence, including by showing that [a] defendant made
misrepresentations to the victim(s) with knowledge that
the statements were false.” United States v. Guadagna,
183 F.3d 122, 129 (2d Cir. 1999); see also United States v.
MacPherson, 424 F.3d 183, 189-90 (2d Cir. 2005).
As to the “object of the scheme” element, a defendant
need not literally obtain money or property -- in the sense
facilitate the payments. Moreover, at least two of the payments
were wired to Preston.

12a
Appendix A
of putting money into his own pocket -- to violate the wire
fraud statute. See Porcelli v. United States, 404 F.3d 157,
162-63 (2d Cir. 2005) (finding it was sufficient to convict
defendant of wire fraud where the tax scheme involved him
keeping money he already had by virtue of his not paying
taxes); see also United States v. Males, 459 F.3d 154, 158
(2d Cir. 2006). And because individuals have the right to
control their property, depriving the victim of “economic
information it would consider valuable in deciding how to
use its assets” satisfies the object-of-the-scheme element.
United States v. Finazzo, 850 F.3d 94, 111 (2d Cir. 2017).
Still, as the Supreme Court recently noted, “a property
fraud conviction cannot stand when the loss to the victim
is only an incidental byproduct of the scheme.” Kelly v.
United States, 140 S. Ct. 1565, 1573, 206 L. Ed. 2d 882
(2020). Loss to the victim “must play more than some bit
part in a scheme: It must be an object of the fraud.” Id.
(internal quotation marks omitted).
B. Application
Defendants argue that they “were convicted of a fraud
they did not know about.” Appellants’ Br. at 42. In other
words, they contend that there was no scheme to defraud
because Defendants did not know that false representations
would be made to the Universities. Defendants also argue
that even if there were such a scheme, the government
failed to prove that the Universities’ athletic-based aid was
an object of that scheme. We disagree in both respects. 3
3. The government contends that Defendants did not argue
in their Rule 29 motion before the district court that they lacked
knowledge that any certifications -- much less false certifications

13a
Appendix A
1.

Scheme to Defraud

Defendants have not shown that the government failed
to present enough evidence for “any rational trier of fact,”
Jackson, 443 U.S. at 319, to find, beyond a reasonable doubt,
that there was a scheme to defraud, see 18 U.S.C. § 1343.
Although Defendants are correct that the government did
not provide direct evidence that proved Defendants knew
the Recruits had to sign eligibility certifications to earn
athletic-based aid, the government did present enough
circumstantial evidence for the jury to have reached that
conclusion. See Guadagna, 183 F.3d at 129 (noting that
circumstantial evidence that “show[s] . . . defendant made
misrepresentations to the victim(s) with knowledge that
the statements were false” may prove intent); see also
United States v. Quattrone, 441 F.3d 153, 169 (2d Cir.
2016) (“[C]ourts . . . may not reject a jury verdict simply
because it rests even wholly on circumstantial evidence.”).
First, Defendants were sophisticated actors who were
involved in all aspects of top-tier basketball in America,
including the amateur grassroots leagues, college
basketball programs, and the NBA. Gatto was the head of
global sports marketing for Adidas, one of the top sports
apparel companies in the world, and he was in charge of
Adidas’s entire basketball marketing budget. Code worked
for Nike, another top apparel company, for fourteen years
where he cultivated relationships with grassroots, high
school, and college basketball programs before he began
-- would be made, and therefore we should review their challenge
for plain error. We need not resolve this issue, as Defendants’
argument fails even under the less exacting de novo standard.

14a
Appendix A
consulting for Adidas. And Dawkins spent time working
for a sports agency recruiting NBA prospects. The jury
was therefore presented with evidence of Defendants’
proximity to -- and involvement in -- all things basketball.
Second, Defendants went to great lengths to prevent
both Adidas and the Universities from discovering that
they were paying the Recruits’ families. Defendants
worked together to disguise their funneling of tens of
thousands of dollars to the Recruits’ families to induce
the Recruits to enroll at Adidas-sponsored schools.
Indeed, Defendants had to lie to Adidas to get reimbursed
for these secretive payments, as those in charge of the
budget at Adidas knew the payments violated both
“NCAA regulation and Adidas policy” and would not
have signed off on them had they known the truth. Supp.
App’x at 311. Their furtive behavior indicates that they
knew their actions were wrong. When coupled with their
sophistication, it was reasonable for the jury to infer they
knew the Recruits had to deceive the Universities about
their eligibility.
Third, Defendants’ co-conspirators admitted on
wiretaps that their conduct violated NCA A rules.
Gassnola, who worked directly under Gatto, explained to
the jury that had the Universities learned that Smith’s
family had been paid, he “would have been deemed
ineligible” and “would never have played [at N.C. State].”
App’x at 283-84. Sood, another co-conspirator, stated
that he knew that giving money to NCAA athletes was
not permitted under NCAA rules and could have led
to those players losing their scholarships. Even if the

15a
Appendix A
co-conspirators’ knowledge could not be imputed to
Defendants, it is nevertheless circumstantial evidence
the jury was permitted to consider. See United States v.
Gordon, 987 F.2d 902, 906-07 (2d Cir. 1993).
Fourth, Code and Dawkins acknowledged that
Bowen had to sign an NCAA form for his commitment
to Louisville to be complete. And Dawkins was recorded
on a wiretap discussing the need to avoid a paper trail
“because some of it is whatever you want to call it, illegal,
against NCAA rules, or whatever.” Supp. App’x at 47.
Accordingly, these statements, together with Defendants’
sophistication, steps taken to conceal their actions, and
co-conspirators’ statements, surely show that Defendants
knew that the Recruits had to sign eligibility forms to
compete in the NCAA, and constituted sufficient evidence
for the jury to find that Defendants knew a materially false
representation had to be made for the scheme to succeed.
See United States v. Reifler, 446 F.3d 65, 96 (2d Cir. 2006).
2.

Object of Scheme

Similarly, the jury was also presented with enough
evidence for a rational trier of fact to find that the
Universities’ athletic-based aid was “an object” of their
scheme. See Kelly, 140 S. Ct. at 1573; see also 18 U.S.C.
§ 1343. In Kelly, better known as the “Bridgegate” case,
state officials devised a scheme to punish the mayor of Fort
Lee, New Jersey, for declining to endorse the incumbent
New Jersey governor in his reelection bid. Kelly, 140 S.
Ct. at 1568. To do so, politically appointed Port Authority
officials closed traffic lanes that led from Fort Lee to the

16a
Appendix A
George Washington Bridge for four days under the guise
that they were conducting a traffic study. Id. The study,
however, was a sham; no official was interested in the
data it produced. Id. at 1570. The government charged
the officials with property fraud, arguing that they
commandeered the traffic lanes and deprived the state of
property by paying extra wages to perpetuate the scheme.
Id. at 1571-72. The officials who did not plead guilty went
to trial and were convicted, id. at 1571, but the Supreme
Court overturned their convictions, id. at 1574.
The unanimous Kelly Court found that property was
not an object of the scheme. Id. at 1572. It explained that
the traffic study was a “sham,” intended only to cover
up the defendants’ misconduct and the additional wages
were “implementation costs” that only became necessary
because an additional toll booth operator was needed after
the original plan was altered to avoid traffic accidents.
Id. at 1574. Because the officials’ only goal was political
retaliation -- to create a headache for the Fort Lee mayor
-- and the officials were indifferent about the unintended
additional costs of carrying out the plan, they were not
guilty of property fraud. Id. The Kelly Court held that “a
property fraud conviction cannot stand when the loss to
the victim is only an incidental byproduct of the scheme.”
Id. at 1573.

17a
Appendix A
This case is different from Kelly.4 Here, the loss of
property -- the Universities’ funds set aside for financial
aid -- was at the heart of Defendants’ scheme. Their
original plan included inducing the Universities to give the
Recruits financial aid by concealing from the Universities
the payments made to the Recruits’ families in fear that if
they were discovered the Recruits would not be permitted
to compete. Importantly, the scheme depended on the
Universities awarding ineligible student-athletes athleticbased aid; without the aid, the recruits would have gone
elsewhere. And if the Recruits’ ineligibility had been
discovered by the schools, the scheme would have failed.
After all, the Recruits would have never been permitted to
play in the NCAA for Adidas-sponsored schools, defeating
the purpose of the payments and potentially derailing the
Recruits’ professional careers. 5
4. In Kelly, the Court explained that “a scheme to alter . . .
a regulatory choice is not one to appropriate . . . property.” 140 S.
Ct. at 1572. Because the defendants in Kelly made a regulatory
decision regarding lane usage, there was no fraudulent obtainment
of property, especially because any loss to the victim was only
incidental to the object of the scheme. Id. at 1573. Here, Defendants
did not make any regulatory decisions in transmitting and
concealing payments to the Recruits’ families. Thus, the Court’s
holding in Kelly that the regulatory decisions were not punishable
under a property fraud theory is inapposite to the case at hand.
5. Indeed, Bowen and Preston never played for Louisville
and Kansas, respectively. Moreover, each has struggled to find
playing time in the NBA. Bowen has only played 29 minutes for
the NBA’s Indiana Pacers and has spent most of his professional
career playing for the team’s minor-league affiliate, the Fort
Wayne Mad Ants. Preston has never appeared in an NBA game
and has only played for the minor-league affiliates of the NBA’s
Cleveland Cavaliers, New Orleans Pelicans, and Dallas Mavericks.

18a
Appendix A
Defendants have asserted that they intended to “assist
the Universities’ recruiting efforts” by luring the best
basketball players to Adidas-sponsored schools to better
market their brand. Appellants’ Supp. Br. at 6. Defendants
may have had multiple objectives, but property need only
be “an object” of their scheme, Kelly, 140 S. Ct. at 1572
(emphasis added), not the sole or primary goal. Unlike in
Kelly, where there was a sham study and additional wages
were paid only after the original plan was scaled back due
to safety concerns, id. at 1574, here, depriving Universities
of athletic-based aid was at the center of the plan.
Finally, the evidence, construed in the government’s
favor, showed that Defendants deprived the Universities
of information that would have helped them decide
whether to award the Recruits athletic-based aid. This
deprivation was enough to support a wire fraud conviction.
See Finazzo, 850 F.3d at 111. As discussed above, hiding
the Recruits’ ineligibility was essential to Defendants’
scheme -- had the Universities known the Recruits were
ineligible, they would not have offered them athletic-based
aid or roster spots on their basketball teams. Similarly,
it was reasonable for the jury to find that Defendants
knew the Recruits had to misrepresent their eligibility
to deceive the Universities into giving them athleticbased aid. Thus, it is evident that Defendants’ scheme
facilitated the withholding of valuable information that
would have caused the Universities not to dispense with
their property. See United States v. Lebedev, 932 F.3d 40,
48-49 (2d Cir. 2019). Accordingly, we conclude that the jury
rationally found that Defendants committed wire fraud.

19a
Appendix A
II. Evidentiary Rulings
We review a district court’s evidentiary rulings for
abuse of discretion, United States v. McDermott, 245
F.3d 133, 140 (2d Cir. 2001), and such rulings will only be
overturned if they are “arbitrary and irrational,” United
States v. White, 692 F.3d 235, 244 (2d Cir. 2012). “Even if
a decision was manifestly erroneous, we will affirm if the
error was harmless.” United States v. Litvak, 889 F.3d 56,
67 (2d Cir. 2018) (citations and internal quotation marks
omitted). An “error is harmless if it is highly probable
that it did not contribute to the verdict.” United States v.
Gomez, 617 F.3d 88, 95 (2d Cir. 2010).
Defendants argue that the district court erroneously
excluded expert testimony and other evidence relevant to
their defense. We address these issues in turn.
A.

Expert Testimony

The district court’s determination whether to admit
expert testimony is guided by Fed. R. Evid. 702. See
Daubert v. Merrell Dow Pharms., Inc., 509 U.S. 579, 58995, 113 S. Ct. 2786, 125 L. Ed. 2d 469 (1993). Generally,
an expert may be permitted to testify if he is qualified,
reliable, and helpful. See Fed. R. Evid. 702. Of course,
courts must also determine whether the proffered
evidence is relevant, see Fed. R. Evid. 401, 402, and, if so,
whether its probative value is substantially outweighed
by the danger of unfair prejudice, Fed. R. Evid. 403
(“The court may exclude relevant evidence if its probative
value is substantially outweighed by a danger of one or

20a
Appendix A
more of the following: unfair prejudice, confusing the
issues, misleading the jury, undue delay, wasting time,
or needlessly presenting cumulative evidence.”). Thus,
although an expert may otherwise be qualified to testify,
the district court can nevertheless exclude his testimony if
it finds the testimony would be unfairly prejudicial. United
States v. Dukagjini, 326 F.3d 45, 51-52 (2d Cir. 2003) (“Of
course, expert testimony, like other forms of evidence,
‘may be excluded if its probative value is substantially
outweighed by the danger of unfair prejudice.’” (quoting
Fed. R. Evid. 403)). Although “a trial judge is given broad
discretion to weigh these competing interests,” this “does
not mean immunity from accountability.” United States
v. Jamil, 707 F.2d 638, 642 (2d Cir. 1983). On appeal, we
“must look at the evidence in a light most favorable to its
proponent, maximizing its probative value and minimizing
its prejudicial effect.” Id.
Defendants sought to call an expert witness to discuss
the myriad of benefits -- both quantitative and qualitative
-- that a successful men’s basketball program bestows
upon a university. Defendants argue that this testimony
would have proven that they intended to help, not harm,
the schools when they paid the Recruits’ families to entice
the Recruits to attend Adidas-sponsored schools. But the
district court did not permit the expert to testify.
First, it found that the expert’s testimony would
not have been helpful because it was based on a study
conducted in preparation for litigation and therefore
“would have shed no light on [D]efendants’ states of
mind at the time the crimes allegedly were committed.”

21a
Appendix A
S. App’x at 47-48. Second, the district court found, “[i]n
any case,” S. App’x at 48, that the information the expert
would have presented was substantially more prejudicial
than probative. It noted that allowing the expert to testify
could have invited improper acquittals by enticing the jury
to base its decision on the perceived unreasonableness or
unfairness of the NCAA’s amateurism rules. The district
court explained how permitting the expert to testify would
have introduced an improper defense -- that Defendants
were not guilty of wire fraud because they believed the
Universities would ultimately benefit from their actions.
We agree with the lower court’s ruling, which was
neither arbitrary nor irrational. Even if we assume
Defendants’ expert’s testimony would have been helpful,
it was substantially more prejudicial than probative. No
doubt, universities stand to profit if their men’s basketball
programs are successful. It is even possible, as Defendants’
expert would have suggested, that a cost-benefit analysis
would reveal that universities come out net-positive when
they commit recruiting violations. But this does not help
Defendants. The law is clear: a defendant cannot negate
the fraud he committed by wishing that everything works
out for his victim in the end. Calderon, 944 F.3d 72, 90 (2d
Cir. 2019) (“[T]he fact that the defendant believes (rightly
or wrongly) that he will ‘ultimately’ be able to work things
out so that the victim suffers no loss is no excuse for the
real and immediate loss contemplated to result from
defendant’s fraudulent conduct.”) (quoting United States
v. Rossomando, 144 F.3d 197, 201 (2d Cir. 1998)); see also
United States v. Ferguson, 676 F.3d 260, 280 (2d Cir. 2011).
That the Universities might have ultimately benefitted

22a
Appendix A
monetarily from having top tier recruits would not have
changed whether Defendants were guilty of wire fraud,
and the evidence might have clouded the issue for the jury.
Accordingly, the district court did not abuse its discretion.
B. Other Evidentiary Challenges
Defendants also challenge several other evidentiary
rulings. None of their arguments have merit.
1.

Phone Calls

Defendants sought to admit the contents of several
recorded phone calls. In one of those calls, Code and
Dawkins discussed a high school6 basketball recruit not
involved in this case. In that conversation, which the
district court excluded, the two noted that the recruit’s
family was asking a school for money in exchange for
their son’s commitment to play for that school’s basketball
team. Code and Dawkins discussed how it was worthwhile
for the school to meet those demands because it stood
to profit substantially from that player. Although the
district court did not clearly explain its reasoning, there
are at least two acceptable reasons for it to have excluded
the call. First, assuming, as Defendants argue, that the
information from the call fit within the state of mind
hearsay exception, see Fed. R. Evid. 803(3), it was not
6. The recordings and transcripts of certain phone calls were
sealed, and the parties filed both sealed and redacted briefs and
appendices. These records are unsealed to the extent, and only
to the extent, the phone calls are discussed in this opinion and
the separate opinion.

23a
Appendix A
unreasonable for the district court to determine that the
call -- which did not concern any of the recruits in this case
and involved conduct that occurred after the payments
alleged in the indictment were made -- was irrelevant.
Second, admitting this phone call could have led the jury
down the impermissible road of considering the wisdom
of the NCAA’s amateurism rules instead of the actions of
Defendants. Accordingly, the district court did not abuse
its discretion in excluding this call.
Defendants also take issue with the district court’s
exclusion of other phone calls in which various NCAA
coaches purportedly encouraged Defendants to violate
the amateurism rules. Defendants contend that this
evidence proved they were doing “what the Universities
wanted and expected their corporate apparel sponsors to
do.” Appellants’ Br. at 114.7 They also argue that the calls
would have contradicted the testimony of Gassnola, one
of the government’s cooperating witnesses. The district
court, however, found the prejudicial effect of these calls
to substantially outweigh their probative value, and it did
not admit them. This was not an abuse of discretion.
First, at least one coach on these calls worked at
a school not involved in this case, and therefore his
discussion of practices elsewhere had little relevance here.
Second, to the extent the calls were relevant, allowing
such testimony could have confused the jury, as it would
7. Defendants cite a 2018 report by the Commission on
College Basketball, “Report and Recommendations to Address
the Issues Facing Collegiate Basketball,” which noted that
“[e]veryone knows what’s been going on.” App’x at 1531.

24a
Appendix A
have required the jury to learn about individuals not
involved in the case. Third, even if we accept that coaches
encouraged NCAA recruiting violations -- there was
testimony, for example, that Pitino, Louisville’s coach,
needed “[p]lausible deniability,” App’x at 640 -- that the
coaches asked Defendants to pay the Recruits’ families
was not a defense unless, as we discuss further below,
the coaches were unconflicted and acting in good faith
on behalf of their Universities, see D’Amato, 39 F.3d at
1257-58. In addition, a closer examination of the calls
Defendants sought to admit further refutes this argument.
When the topic of compensating recruits came up, for
example, one coach said: “I have got to shut my door.” D.
Ct. Dkt. No. 259 at 28. That this coach did not want to
have a conversation about violating NCAA rules with his
door open indicates that his school did not condone such
behavior. Another coach said he kept his relationship with
Dawkins “off the book,” which the jury reasonably could
have understood to mean off the record. D. Ct. Dkt. No.
259 at 31. Thus, this evidence is of limited utility to the
extent it supposedly proves that Defendants believed they
were doing what the Universities here wanted, as it cuts
against any argument that the coaches were unconflicted
and acting in good faith. See D’Amato, 39 F.3d at 1257-58.
Accordingly, the district court did not abuse its discretion
in excluding the evidence.
We also disagree that admitting the phone calls would
have called into question Gassnola’s veracity. Gassnola
testified that he would not have told a University that
he had paid a recruit’s family member because “[t]hey
wouldn’t have liked [that] very much.” App’x at 293.

25a
Appendix A
Defendants argue that the phone calls in which various
coaches solicited this sort of help would have contradicted
this testimony. We are not persuaded. The evidence
Defendants sought to admit -- phone calls that Gassnola
was not a part of -- consisted of coaches speaking
guardedly about NCAA violations because they knew
what they were doing was wrong. It is wholly consistent
that Gassnola would have refrained from discussing the
payments with University personnel. Flaunting such
violations to the Universities, after all, would have put
their compliance departments in difficult situations. Thus,
we are not persuaded that Defendants’ cross-examination
of Gassnola was inhibited because the district court
excluded the phone calls, and we conclude that the district
court did not abuse its discretion in excluding the phone
calls. 8
2.

Recruiting Violations

Defendants also sought to present evidence of
Louisville’s previous recruiting infractions “to demonstrate
that . . . Louisville had a history of violating NCAA rules in
order to recruit talented athletes, and thus, [Defendants]
had no reason to think they were defrauding Louisville
8. In his partial dissent, Judge Lynch presents thoughtful and
substantial arguments in favor of reaching evidentiary outcomes
different from those reached by the district court with respect
to certain of the phone calls as well as certain of the recruiting
violations discussed in the next section. While his concerns
certainly give us pause, we believe that the district court did not
abuse its broad discretion in ruling on these difficult and close
evidentiary questions.

26a
Appendix A
by doing the same.” Appellants’ Br. at 117. In particular,
Defendants wanted the jury to learn that Louisville was
sanctioned for providing recruits who visited Louisville
with exotic dancers and prostitutes. Importantly,
Defendants sought to introduce an NCAA Committee on
Infractions (“COI”) decision that found, inter alia, that
Louisville committed recruiting violations by providing
impermissible benefits to prospective players. As the
district court noted, the COI decision is “somebody’s
opinion of what the facts were.” App’x at 153. Accordingly,
the decision itself was not a fact, and it therefore could
not be admitted into evidence by a University compliance
officer who was not involved in the investigation. The
district court also excluded the evidence under Rule 403.
Again, this was not an abuse of discretion.
Notably, Defendants stipulated with the government
that Louisville previously violated NCAA rules and was
sanctioned because of it. This permitted Defendants to
argue -- as two of them did in summation -- that they
did not think they were defrauding the Universities by
committing recruiting violations because Louisville itself
had previously disregarded NCAA rules. Indeed, this is
why they sought to admit the violations in the first place.
That the district court did not allow the intricate details of
high school recruits being provided escorts and prostitutes
to distract the jury from the scheme at issue in the case
was not an abuse of discretion.
3.

Compliance Witnesses

Defendants also sought to admit evidence to challenge
the Universities’ compliance officers’ collective testimony

27a
Appendix A
that they were diligent stewards of NCAA rules. In
essence, Defendants wanted to demonstrate that the
Universities took “calculated risk[s]” when they awarded
athletic-based aid to ineligible recruits. Appellants’ Br.
at 122. To a large extent, Defendants reassert the same
reason for why their expert should have been allowed to
testify. Because we have already rejected this argument
above, we write only to address whether the district
court abused its discretion in refusing to allow crossexamination about certain NCAA guidelines. We conclude
it did not.
On cross-examination, Defendants were not permitted
to question the compliance officers about specific
instances in which student-athletes who competed for
the Universities were temporarily deemed ineligible and
then readmitted to play under the NCAA reinstatement
guidelines. According to Defendants, ineligible studentathletes who did not know that their families accepted
improper benefits may be reinstated to their teams
after serving suspensions. Because these penalties are
temporary and unencumbering, as the argument goes,
the Universities were willing to risk getting caught
because the reward outweighed the risk. The district
court found that the evidence was beyond the scope of
direct examination, not relevant, and substantially more
prejudicial than probative. We agree.
A trial court “is accorded broad discretion in
controlling the scope and extent of cross-examination.”
United States v. James, 712 F.3d 79, 103 (2d Cir. 2013)
(internal quotation marks omitted). We recognize that it is
“unrealistic to expect that direct examination and cross-

28a
Appendix A
examination will be perfectly congruent,” and we have
noted that “[t]he latter need only be reasonably related
to the former.” United States v. Caracappa, 614 F.3d 30,
43 (2d Cir. 2010).
Here, on direct examination, the government discussed
the NCAA reinstatement guidelines in reference to the
sanctions a university could face. It did not discuss how a
student-athlete who has been deemed ineligible goes about
getting reinstated or the penalties such student-athlete
might face. It was not an abuse of the district court’s broad
discretion to prevent Defendants from asking questions
about specific instances in which student-athletes not
involved in this case were deemed ineligible and eventually
reinstated. Moreover, this line of questioning would have
confused the jury and distracted it from the issue in the
case: whether Defendants withheld valuable information
from the Universities to defraud them of athletic-based
aid. Indeed, Defendants’ entire argument that the
Universities took calculated risks by signing ineligible
student-athletes because the penalty for doing so was
meager is not responsive to the prosecution’s theory that
Defendants concealed the Recruits’ ineligibility from the
Universities. Thus, to the extent that Universities weighed
the consequences of issuing athletic-based aid to ineligible
recruits, Defendants prevented them from doing so here
by misrepresenting that Bowen, Preston, and Smith were
in compliance with NCAA rules.9
9. Defendants’ remaining a rg ument that they were
improperly barred from introducing a portion of the NCAA
rulebook is without merit. Even assuming the district court erred
by not admitting the evidence during cross-examination, any such

29a
Appendix A
III.

Jury Instructions

“We review de novo a district court’s jury instruction,”
United States v. Roy, 783 F.3d 418, 420 (2d Cir. 2015),
“and will vacate a conviction for an erroneous charge
unless the error was harmless,” United States v. Nouri,
711 F.3d 129, 138 (2d Cir. 2013). If, however, “a defendant
fails to make a timely objection, we review the instruction
for plain error.” Id. A jury charge is adequate if “taken
as a whole, [it] is correct and sufficiently covers the case
so that a jury can intelligently determine the questions
presented to it.” Garnett v. Undercover Officer C0039,
838 F.3d 265, 280 (2d Cir. 2016); see also United States v.
Dyer, 922 F.2d 105, 107 (2d Cir. 1990) (“[A] jury charge
must be viewed as a whole and in the context of the entire
trial.”). “A jury instruction is erroneous if it either fails
adequately to inform the jury of the law or misleads the
jury as to the correct legal standard.” United States v.
George, 779 F.3d 113, 117 (2d Cir. 2015).
Defendants argue that the district court erroneously
instructed the jury on: (1) conscious avoidance; (2) the
meaning of “obtain” in 18 U.S.C. § 1343; (3) the “right to
control”; and (4) the requisite intent. We address these
issues in turn.

error was harmless, as Defendants’ argument relied on a flawed,
selective reading of the rulebook.

30a
Appendix A
A.

Conscious Avoidance

The doctrine of conscious avoidance (i.e., “willful
blindness”) prevents defendants from avoiding criminal
liability by “deliberately shielding themselves from clear
evidence of critical facts that are strongly suggested by
the circumstances” and that, if known, would render
them guilty of a crime. Glob.-Tech Appliances, Inc. v.
SEB S.A., 563 U.S. 754, 766, 131 S. Ct. 2060, 179 L. Ed.
2d 1167 (2011). This doctrine has two requirements: “(1)
The defendant must subjectively believe that there is a
high probability that a fact exists and (2) the defendant
must take deliberate actions to avoid learning of that
fact.” Id. at 769.
A conscious avoidance jury charge “permits a jury
to find that a defendant had culpable knowledge of a fact
when the evidence shows that the defendant intentionally
avoided confirming the fact.” United States v. Kozeny,
667 F.3d 122, 132 (2d Cir. 2011). Such a charge may be
given when (1) the defendant claims to lack “some specific
aspect of knowledge required for conviction” and (2) there
is enough evidence for “a rational juror [to] reach the
conclusion beyond a reasonable doubt that the defendant
was aware of a high probability of the fact in dispute
and consciously avoided confirming that fact.” United
States v. Fofanah, 765 F.3d 141, 144-45 (2d Cir. 2014).
The instruction “permits a finding of knowledge even
where there is no evidence that the defendant possessed
actual knowledge.” United States v. Ferrarini, 219 F.3d
145, 154 (2d Cir. 2000). When a defendant challenges the
factual basis for a jury’s finding of conscious avoidance, he

31a
Appendix A
is essentially challenging the sufficiency of the evidence
and therefore “bears a heavy burden.” See United States
v. Aina-Marshall, 336 F.3d 167, 171 (2d Cir. 2003).
In pertinent part, the district court here explained
that the jury “may find that a defendant acted with the
necessary knowledge as to particular facts on the basis
that the defendant consciously avoided learning those
facts by deliberately closing his eyes to what otherwise
would have been clear.” App’x at 450. The court was
clear that because Defendants denied that they knew the
Recruits had to sign eligibility certifications, the jury
could find that it was Defendants’ “consci[ous] intention”
-- as compared to their “carelessness or negligence” -- to
remain ignorant of facts to “escape the consequences of
criminal law.” App’x at 451. Importantly, the court noted
that a conscious avoidance argument “is not a substitute
for proof. It is simply another fact you may consider in
deciding what the defendant knew.” App’x at 451.
Defendants raise several arguments for why the
conscious avoidance jury instruction was erroneous.
None is persuasive. First, Defendants argue that that the
government failed to show that Defendants deliberately
avoided confirming the facts, and therefore the conscious
avoidance charge should not have been given. While it
is true that conscious avoidance requires more than a
reckless or negligent disregard of the facts, see Glob.-Tech
Appliances, 563 U.S. at 769-70, the government met its
burden here. As discussed in detail above, the jury heard
ample evidence demonstrating that Defendants knew
the Recruits had to misrepresent their eligibility for the

32a
Appendix A
scheme to succeed. Moreover, the district court’s charge
accurately instructed the jury on the law, and the jury
reasonably concluded Defendants consciously avoided
learning of the eligibility forms.
Next, Defendants contend that it was impossible
for them to have consciously avoided learning that the
Recruits had to sign eligibility forms for the scheme
to succeed because the forms were completed after the
payments were made. This argument is unavailing. We
have previously rejected the proposition that “a conscious
avoidance instruction is only appropriate where the crime
includes knowledge of an existing fact as an element.”
United States v. Gurary, 860 F.2d 521, 526 (2d Cir. 1988)
(emphasis added). Rather, such a charge is appropriate
when there is “proof of notice of high probability” that
future conduct will occur. Id. at 527. Although the charge
may be inappropriate in certain one-off crimes where at
best the jury is left to speculate what the defendant may
have foreseen happening, but see Ferguson, 676 F.3d at
279 (conscious avoidance charge was permissible where
“parameters of the deal were developed over a number
of months, and there were numerous forward-looking
meetings, emails, and negotiations”), it is a permissible
charge when defendants’ repeated conduct makes it
all-the-more likely that they remained willfully blind.
Gurary, 860 F.2d at 527. Here, Defendants were involved
in at least three schemes that spanned several years.10
Accordingly, the charge was appropriate.
10. The indictment also mentioned a similar scheme at the
University of Miami, and there was evidence presented at trial
that indicated at least one other recruit’s legal guardian was paid
for that recruit to commit to Kansas.

33a
Appendix A
Third, Defendants argue that the district court
gave two inconsistent charges, asking the jury to find
that Defendants consciously avoided a fact while also
willfully causing a result. There is no inconsistency here.
Willful causation is a form of secondary liability where
an actor can be found guilty of a crime if he purposefully
caused another to act criminally. See United States v.
Nolan, 136 F.3d 265, 272 (2d Cir. 1998); 18 U.S.C. § 2(b)
(“Whoever willfully causes an act to be done which if
directly performed by him or another would be an offense
against the United States, is punishable as a principal.”).
The district court’s instruction as to conscious avoidance
permitted the jury to impute knowledge onto Defendants.
The willful causation charge, conversely, permitted the
jury to impute a third party’s actions onto Defendants.
Here, it allowed the jury to attribute the Recruits’ false
statements to Defendants, who both persuaded the
Recruits to sign on with the Universities and rendered
them ineligible by violating NCAA rules. These two
charges are compatible. In any event, even assuming
the district court committed error, any such error was
harmless, as the jury could have found that Defendants
had actual knowledge that false representations would be
made to the Universities. See Ferrarini, 219 F.3d at 154
(“[A]n erroneously given conscious avoidance instruction
constitutes harmless error if the jury was charged on
actual knowledge and there was overwhelming evidence
to support a finding that the defendant instead possessed
actual knowledge of the fact at issue.” (internal quotation
marks omitted)).

34a
Appendix A
B. “Obtain”
A defendant is guilty of wire fraud if he “devises
or intends to devise any scheme or artifice to defraud,
or for obtaining money or property by means of false
or fraudulent pretenses, representations, or promises”
and uses wires to further that scheme. 18 U.S.C. § 1343
(emphasis added). Defendants argue that a plain reading
of the statute makes it clear that the law requires that
property or money be obtained by the defendant from the
victim, and the district court erred by not making this
clear to the jury. We are not persuaded.
The district court instructed the jury, in relevant
part, that Defendants had to have made or caused another
to make a false statement that involved a “material fact
. . . that would reasonably be expected to influence, or that
is capable of influencing, the decision of the [Universities
to award the Recruits athletic-based aid].” App’x at 441.
It made clear that Defendants did not need to profit from
the fraud; they did, however, need to “contemplate[]
depriving the victim . . . of money or property,” App’x at
443. Indeed, the court was explicit: “[A] victim can be
deprived of money or property . . . when it is deprived of
the ability to make an informed economic decision about
what to do with its money or property.” App’x at 444. This
instruction, as noted above, accurately explains the law.
See United States v. Carlo, 507 F.3d 799 (2d Cir. 2007)
(“Since a defining feature of most property is the right to
control the asset in question, we have recognized that the
property interests protected by the [wire fraud] statute[]
include the interest of a victim in controlling his or her
own assets.”).

35a
Appendix A
First, Defendants rely on two canons of statutory
interpretation --that courts are bound by what the text
of a statute says and that courts must apply the ordinary
meaning of the words in a statute. They contend that the
words “obtaining” and “defraud” in § 1343 unambiguously
mean that a defendant must personally obtain property
from the victim to be convicted of wire fraud. This
interpretation conflicts with our Court’s precedent. As
noted above, we have held that the wire fraud statute
is violated when the defendant prevents the victim
from making an informed economic decision about the
victim’s property, regardless of who ultimately benefits
from the victim’s property. See Finazzo, 850 F.3d at 111
(approving a jury instruction that explained that “the
right to control one’s assets is injured when a victim is
deprived of potentially valuable economic information it
would consider valuable in deciding how to use its assets”)
(internal quotation marks omitted); see also Binday, 804
F.3d at 581 (approving a jury instruction that explained
that “a person can also be deprived of money or property
when he is deprived of the ability to make an informed
economic decision about what to do with his money or
property”). Indeed, a defendant “does not need to literally
obtain money or property to violate the [wire or mail fraud]
statute[s].” Porcelli, 404 F.3d at 162 (internal quotation
marks omitted); see also Males, 459 F.3d at 158 (same).
Further, Section 1343 punishes the individual who
devises the scheme. 18 U.S.C. § 1343 (“Whoever, having
devised or intending to devise any scheme or artifice to
defraud, or for obtaining money or property by means of
false or fraudulent pretenses, representations, or promises
. . . ” is guilty of wire fraud. (emphasis added)). What

36a
Appendix A
matters, therefore, is that there was a scheme to defraud
a victim of money or property. By the plain language
of the statute, the identity of the ultimate beneficiary
is not dispositive and the plain meaning of the word
“obtain” is sufficiently capacious to encompass schemes
by defendants to obtain money for the benefit of a favored
third party. See United States v. Johnson, 945 F.3d 606,
610-11 (2d Cir. 2019) (affirming a bank executive’s wire
fraud conviction when his misrepresentations caused
the victim to confer a benefit on the bank rather than
himself). Thus, a victim’s loss need not flow directly to
the defendant for the defendant to be guilty of wire fraud.
See United States v. Calderon, 944 F.3d at 88-90 (holding
that a wire fraud scheme contemplated actual harm to
the victims when modifications to bills of lading exposed
banks “to risk of default or non-reimbursement” from
foreign correspondent banks and increased the risk the
government would not reimburse the victim banks if a
foreign bank defaulted).
Second, Defendants rely on case law. They contend
that Supreme Court precedent and several out-of-circuit
cases also require that the defendant personally obtain the
victim’s property. Not so. Although, as discussed above,
obtaining the victim’s property must be “an object of the
fraud,” Kelly, 140 S. Ct. at 1573, there is no precedent
mandating that the victim’s property flow directly to the
defendant. Nor should there be. Surely a defendant would
be guilty of fraud if he deceived a victim into providing
money or property to the defendant’s relative, friend, or
favorite charity, rather than directly to the defendant
himself. Such an act would come within the plain meaning

37a
Appendix A
of the statute: the deception would be for the purpose of
obtaining money or property from the victim for a person
of defendant’s choosing.
Defendants also misread Carpenter v. United States,
484 U.S. 19, 108 S. Ct. 316, 98 L. Ed. 2d 275 (1987), claiming
that it stands for the proposition that a defendant must
obtain property from the victim. The language Defendants
quote, however, is the Court reiterating an argument
made by one of the parties -- it is not the Court’s holding.
Compare Appellants’ Br. at 63 (“[A]fter McNally, the
requirement that the defendant ‘obtain . . . money or
property from the [victim]’ is a ‘necessary element’ of
wire fraud.”); with Carpenter, 484 U.S. at 25 (“Petitioners
assert that . . . they did not obtain any ‘money or property’
from the [victim], which is a necessary element of the crime
under our decision last Term in [McNally].”). Indeed, the
Court in Carpenter explains that the property fraud
statutes “reach any scheme to deprive another of money
or property by means of false or fraudulent pretenses,
representations, or promises.” Carpenter, 484 U.S. at 27
(emphasis added). Once again, there is no requirement
that the property flow to the defendant.
Nor are we bound or persuaded by the out-of-circuit
precedent that Defendants cite. We address only the case
on which Defendants most heavily rely. In United States v.
Walters, the Seventh Circuit explained that “[l]osses that
occur as byproducts of a deceitful scheme do not satisfy
the statutory requirement” for property fraud. 997 F.2d
1219, 1227 (7th Cir. 1993). We do not quarrel with this rule,
which was recently reaffirmed by the Supreme Court. See

38a
Appendix A
Kelly, 140 S. Ct. at 1573. The facts of Walters, however,
are distinguishable.
Norby Walters was an aspiring sports agent who gave
NCAA student-athletes cars and money with the hope that
they would retain him as their agent when they turned
professional. Walters, 997 F.2d at 1221. This, of course,
violated the NCAA’s amateurism rules. Id. The Seventh
Circuit noted that because “[t]he athletes’ pro prospects
depended on successful completion of their collegiate
careers,” id., it could “assume that Walters knew that the
universities would ask [the] athletes to verify that they
were eligible to compete as amateurs,” id. at 1222, and
Walters “promised to lie to the universities” about the
payments if asked, id. at 1221.
The Walters Court acknowledged that the case was
close: “Everything . . . turns on matters of degree. Did
the schemers foresee that the mails would be used? Did
the mailing advance the success of the scheme? Which
parts of a scheme are ‘essential’? Such questions lack
obviously right answers.” Id. at 1222. Ultimately, the
Court found that Walters did not “conceive[] a scheme in
which mailings played a role.” Id. In other words, Walters
did not satisfy a critical element of the mail fraud statute:
he did not intend to mail anything. Id. (“For all Walters
cared, the [eligibility] forms could sit forever in cartons.
Movement to someplace else was irrelevant.”). Here, the
equivalent element in the wire fraud statute is the use of
wires, which Defendants do not -- and cannot -- dispute.
Accordingly, Defendants’ reliance on Walters is misplaced,
and, for the reasons noted above, the district court did not
err in its instructions on the meaning of “obtain.”

39a
Appendix A
C.

Right to Control

Because one has a right to control one’s property, “a
wire fraud charge under a right-to-control theory can be
predicated on a showing that the defendant, through the
withholding or inaccurate reporting of information that
could impact on economic decisions, deprived some person
or entity of potentially valuable economic information.”
Lebedev, 932 F.3d at 48 (internal quotation marks and
alterations omitted); see also Finazzo, 850 F.3d at 111
(“[M]isrepresentations or non—disclosure of information
cannot support a [wire fraud] conviction under the ‘right
to control’ theory unless those misrepresentations or
non—disclosures can or do result in tangible economic
harm.”). In other words, as discussed above, depriving
a victim of “potentially valuable economic information it
would consider valuable in deciding how to use its assets”
prevents the victim from exercising its right to control
its property and can therefore support a wire fraud
conviction. Finazzo, 850 F.3d at 111.
Defendants’ “right to control” argument is essentially
a refashioning of its “obtain” arguments, which we have
addressed above. Here, Defendants argue that “the
Universities’ ability to make an informed economic
decision about scholarships is not property, because it
is not an interest that holds any independent economic
value.” Appellants’ Br. at 71 (internal quotation marks
omitted). Accordingly, they contend that the district court
erred when it instructed the jury on the right-to-control

40a
Appendix A
theory.11 They challenge the following portion of the
district court’s instruction:
[A] victim can be deprived of money or property
also when it is deprived of the ability to make
an informed economic decision about what to do
with its money or property -- in other words,
when it is deprived of the right to control the
use of its assets. I instruct you that a victim’s
loss of the right to control the use of its assets
constitutes deprivation of money or property
if, and only if, the scheme could have caused or
did cause tangible economic harm to the victim.
App’x at 444.
There is no doubt that the Universities’ scholarship
money is a property interest with independent economic
value. First, and most obviously, the Universities awarded
tuition, room, and board to the Recruits. Without these
awards, the Recruits would have had to pay tens of
thousands of dollars to attend the schools. Second, there
are a finite number of athletic-based scholarships that
each University can award. Thus, giving a scholarship
to one student necessarily precludes another student
from receiving that same scholarship. And because the
Universities would not have awarded the Recruits this aid
had they known the Recruits were ineligible to compete,
11. Defendants objected to the “right to control” jury
instruction given by the district court in a pre-trial filing, but
they did not renew this objection at the charge conference. We
need not determine whether this affects the standard of review,
as Defendants’ argument fails either way.

41a
Appendix A
withholding that information is a quintessential example
of depriving a victim of its right to control its assets.
Accordingly, the district court’s instructions accurately
reflected the law, and it therefore did not err in this
respect. See Finazzo, 850 F.3d at 111.
D.

Intent

As discussed above, a defendant must act with
fraudulent intent to be convicted of wire fraud. Thus, if
the victim -- or an agent authorized to act on behalf of the
victim -- gives permission to the defendant to act in the
manner at issue, the defendant cannot be found guilty of
wire fraud. See United States v. Bonanno, 430 F.2d 1060,
1064, 1064 n.5 (2d Cir. 1970) (noting that use of others’
credit cards “without permission” constituted evidence
of “intent to mislead” in a mail fraud conviction) (emphasis
added). An agent can either have actual authority to act,
which is when the agent receives “explicit permission
from the principal to act on its behalf,” Garanti Finansal
Kiralama A.S. v. Aqua Marine & Trading Inc., 697 F.3d
59, 71 (2d Cir. 2012), or apparent authority to act, which
is when an agent has the ability to bind the principal to
transactions with third parties because representations
that the principal made to the third party make it
reasonable for the third party to believe the agent has such
an ability, United States v. Int’l Bhd. of Teamsters, 986
F.2d 15, 20 (2d Cir. 1993). “It is the law in this circuit, as
well as generally, that customarily only the representation
of the principal to the third party can create apparent
authority, not the representation of the agent alone.” Id.
(emphasis added).

42a
Appendix A
Certain corporate agents, however, inherently have
apparent authority to represent their principals, even if
the principal does not make a specific representation to
the third party. See D’Amato, 39 F.3d at 1258. For there
to be apparent authority in such a circumstance, two
elements must be met: (1) the principal is making a lawful
decision to conceal the relationship with the agent and (2)
the agent is acting in good faith and not profiting from
the decision. Id.
Defendants argue that they did not have the requisite
fraudulent intent because their scheme was designed to
help the Universities recruit top-tier players. Indeed,
they argue that the men’s basketball coaches asked them
to make payments to the Recruits’ families. Accordingly,
Defendants take issue with the district court’s jury
instruction on intent, which they contend should have
made clear that the jury could acquit if it found that
Defendants believed the men’s basketball coaches had
the apparent authority to instruct them to violate NCAA
rules. Contrary to Defendants’ arguments, the district
court did just that.
As an introduction to the concept of agency law, the
district court instructed the jury as follows:
Each of the alleged victims and intended
victims of the crimes charged in the indictment
is a university. Universities, of course, are
not human beings. They can think or act only
through their agents -- that is to say, their
officers, their employees, and their other

43a
Appendix A
authorized representatives. So, the knowledge,
the intentions, the statements, and the actions
of a university officer, employee, or other
representative --and that includes basketball
coaches -- are considered to be those of the
university to the extent, but only to the
extent, that the officer, employee, or other
representative is, first of all, acting within the
scope of the authority of that officer, agent,
or representative and, second of all, without
any purpose to profit personally or otherwise
benefit him or herself in a manner that is not
fully aligned with the interests of the university.
App’x at 438-39.
Defendants characterize this as an actual authority
jury instruction. We disagree. As the district court noted,
the words “actual authority” do not appear anywhere in
this instruction. While this alone is not dispositive, the
context in which the instruction was given is. See Garnett,
838 F.3d at 280 (A jury charge is adequate if “taken as
a whole, [it] is correct and sufficiently covers the case
so that a jury can intelligently determine the questions
presented to it”). Here, the district court was introducing
the concept of agency law to the jury. Its instruction
accurately explained how the Universities had to act
through their agents, which it made clear included the
men’s basketball coaches. This was a crucial explanation
that set up the court’s apparent authority instruction,
which it gave shortly thereafter. In relevant part, the
district court instructed the jury as follows:

44a
Appendix A
Now, as to certain of the universities, one or
more of the defendants contends that they
lacked intent to defraud because they acted
in good faith at the request of one or more
university basketball coaches. An individual
who does not work for a university and who
engages in (otherwise legal) conduct to mislead
the university lacks an intent to defraud the
university if three things are true: First, he or
she was acting at the request of an agent of the
alleged victim university; second, the agent had
apparent authority to make that request; and,
third, the agent appeared to be unconflicted
and acting in good faith for the benefit of the
victim university and not to serve his or her own
interests in a manner that was not fully aligned
with the interests of the university.
App’x at 447. The district court went on to explain each
of the three prongs in detail.
Defendants contend that the district court’s instruction
was unnecessarily complex and legally incorrect. Again,
we disagree. The thrust of Defendants’ argument is that
the district court misapplied D’Amato, a case where
a lawyer (D’Amato) was hired by a vice president of a
corporation to lobby D’Amato’s brother, a United States
senator. D’Amato, 39 F.3d at 1252-53. But the district
court’s jury instructions accurately explained the apparent
authority rule from D’Amato. From a legal standpoint, this
alone ends the inquiry, as the jury instruction neither
“fail[ed to] adequately . . . inform the jury of the law

45a
Appendix A
[n]or misle[d] the jury as to the correct legal standard.”
George, 779 F.3d at 117. Defendants’ argument that they
were merely following coaches’ instructions when they
paid the Recruits’ families also misunderstands D’Amato.
Even assuming that the Universities’ coaches encouraged
Defendants to pay Recruits’ families to steer the Recruits
toward their basketball programs -- indeed, Defendants
discussed giving Pitino “[p]lausible deniability,” App’x at
640 --Defendants would have had to have believed that the
coaches were acting in good faith. In other words, if we
analogize the head coaches to corporate agents, D’Amato
teaches that Defendants would have had to believe that
the coaches’ commands were made in good faith to carry
out the principals’ (i.e., the Universities’) objectives. See
D’Amato, 39 F.3d at 1258 (explaining that a party may
“follow[] the instructions of an appropriate corporate
agent who appears to be unconflicted and acting in good
faith”). On this record, the jury could have reasonably
found that this was not the case.
The jury was shown the head coaches’ contracts,
which required them to ensure their players were eligible
to compete and provided incentives if their teams had
successful seasons. Defendants were sophisticated actors
in the world of college sports, as discussed in detail above,
who surely were generally aware of the coaches’ obligations
to comply with NCAA rules and likely knew there were
financial incentives tied to their teams’ successes. Thus,
any argument that Defendants believed the coaches were
acting in good faith by violating their contracts to secure
top talent is unreasonable.

46a
Appendix A
Moreover, there is no indication that the Universities
condoned surreptitiously paying Recruits’ families to
entice Recruits to play for their basketball teams. Int’l
Bhd. of Teamsters, 986 F.2d at 20 (“It is the law in this
circuit, as well as generally, that customarily only the
representation of the principal to the third party can
create apparent authority, not the representation of the
agent alone.” (emphasis added)). Instead, there is evidence
to the contrary -- compliance officers from the Universities
testified about the harsh NCAA sanctions their institutions
would face if such activity occurred and was discovered.
In any event, there is also no indication that the coaches
ever instructed Defendants to conceal the payments. In
D’Amato, the corporate agent was forthright about the
need to create false reports and funnel the payments
through D’Amato’s law partner. 39 F.3d at 1254-55. This
-- along with the fact that payments were repeatedly
approved by others who worked at the corporation,
id. at 1253-54, 1261 -- made it plausible that D’Amato
believed this was business-as-usual and approved by the
corporation. Here, by contrast, Defendants themselves
took these precautions, which shows that they knew what
they were doing was against the Universities’ wishes. As
Dawkins stated in a recorded phone call, “I would never
tell Rick anything like this because I don’t want to put him
in jeopardy.” Supp. App’x at 142. These actions belie the
notion that the activity was approved by the Universities.
Because the district court’s jury instruction accurately
reflected the law on apparent authority, it did not err.12
12. We are also unpersuaded by Defendants’ dual intent
argument, as it is commonplace for individuals to have more than

47a
Appendix A
CONCLUSION
At trial, Defendants argued that their intent was not
to harm but to help the Universities, and they also sought
to offer evidence that they were not the only individuals
who have paid high school basketball recruits to attend
certain universities. The ends, however, do not justify
the means,13 and that others are engaging in improper
behavior does not make it lawful. See Gonnella v. S.E.C.,
954 F.3d 536, 549 (2d Cir. 2020) (“[T]he fact that behavior
is common does not mean it is not fraud.”); see also Newton
v. Merrill, Lynch, Pierce, Fenner & Smith, Inc., 135
F.3d 266, 274 (3d Cir. 1998) (en banc) (“Even a universal
industry practice may still be fraudulent.”).
Defendants concede that they broke the NCAA rules,
but contend that they did not act criminally. But “the
essence of fraud is misrepresentation, made with the
one motive for acting. See United States v. Technodyne LLC,
753 F.3d 368, 385 (2d Cir. 2014) (“It is commonplace that the law
recognizes that there may be multiple motives for human behavior;
thus, a specific intent need not be the actor’s sole, or even primary,
purpose.”). That the district court’s jury instruction reflected
this notion in no way foreclosed Defendants’ good-faith defense.
Such an argument ignores the jury instruction as a whole, which
explained that “good faith on the part of a defendant that you are
considering is a complete defense to the charge of wire fraud.”
App’x at 446.
13. Long ago, Judge Medina referred to “the false but
seductive doctrine that the end justifies the means,” adding that the
doctrine “has never taken lodgment in American jurisprudence;
and I hope it never will.” United States v. Morgan, 118 F. Supp.
621, 634 (S.D.N.Y. 1953).

48a
Appendix A
intent to induce another person to take action ‘without
the relevant facts necessary to make an informed . . .
decision.’” United States v, Rutigliano, 887 F.3d 98, 109
(2d Cir. 2018) (quoting United States v. Binday, 804 F.3d
at 579). Fraud involves “a departure from fundamental
honesty, moral uprightness, or fair play,” United States v.
Ragosta, 970 F.2d 1085, 1090 (2d Cir. 1992) (quoting United
States v. Goldblatt, 813 F.2d 619, 624 (3d Cir. 1987)), and
depriving one of property through “dishonest methods
or schemes” or “trick, deceit, chicane or overreaching,”
Id. (internal quotation marks omitted). Here, as the jury
could have reasonably found, Defendants deprived the
Universities of property -- athletic-based aid that they
could have awarded to students who were eligible to play
-- by breaking NCAA rules and depriving the Universities
of relevant information through fundamentally dishonest
means.
For the foregoing reasons, the judgments of the
district court are AFFIRMED.

49a
Appendix A
Gerard E. Lynch, Circuit Judge, concurring in part and
dissenting in part:
I agree with the Court that the evidence was sufficient
to support the jury’s verdict and that the jury was properly
instructed as to the governing law. I believe, however, that
the case is much closer as to certain of the district court’s
evidentiary rulings than the majority allows, and that
some of the evidence offered by the defense should have
been admitted. Ultimately, I conclude that the erroneous
exclusion of that evidence was not harmless. I therefore
join in the thoughtful and thorough opinion for the Court,
except with respect to Parts II.B.1 and II.B.2 of the
Discussion section. For the reasons discussed below, I
agree that the convictions of Gatto and Code as to counts
one and two should be affirmed. But given the potential
effect that the erroneously excluded evidence may have
had on the verdict as to certain counts, Gatto’s conviction
as to count three and Dawkins’s convictions on counts one
and two should be reversed.
I.

Overview

The district court in this case had to walk a fine line
with respect to its evidentiary rulings. The defendants’
activities occurred in the context of the controversial
world of big-time college athletics. Many reasonable people
believe that the institution of major college sports has far
outgrown its founding assumptions, which postulate that
college sports are pursued as an avocation by studentathletes who compete for the love of the game and the
honor of their schools. Today, college athletics is a billion-

50a
Appendix A
dollar industry, which generates enormous revenues for
universities — and enormous salaries for college coaches,
who in the case of public universities are often the highestpaid public employees in their states. Those revenues
and salaries are made profitable by the fact that the
students who play for the teams receive no compensation
(beyond free tuition for classes they often have little
time to complete) for working what many — including
some of the players themselves and some demanding
coaches — view as full-time jobs as athletic performers.
The disconnect between the athletes’ financial value
to their schools and the refusal to pay them what their
market value would command if they were acknowledged
as full-time professional athletes creates an opportunity
for corruption and covert rule-breaking. It is against this
backdrop that the district court had to make its careful
evidentiary decisions balancing the probative value of
various proffered pieces of evidence against the potential
of that evidence to prejudice the jury by playing to the
likelihood that at least some jurors might believe that the
colleges that the defendants were accused of defrauding
were themselves corrupt and unworthy of protection.
The defendants in this case were accused of defrauding
three universities, by paying cash bounties to the families
of outstanding high school basketball players to secure
their enrollment at those universities, in violation of the
universities’ proclaimed policies, so that the universities
awarded the athletes valuable scholarships to which they
were not entitled under those policies and NCAA rules.
The bounties were paid from the funds of a prominent
manufacturer of athletic gear and attire, a sponsor of

51a
Appendix A
the universities’ athletic programs, in violation of the
proclaimed policies of that company. The sponsorship
gave the company a stake in the competitive success of the
sponsored programs, which would enhance the visibility
and allure of the company’s products, and helped secure
the good will of the athletes, in the event they became
successful professional basketball players and were offered
endorsement deals by the company and its competitors.
The sums involved were substantial in relation to the
resources of the recruits and their families, but modest
in comparison to the sums earned by professional athletes
for their endorsements.
The defendants, as the majority notes, acknowledged
that their actions violated NCAA rules and the official
policies of the universities, that the bounties rendered
the athletes ineligible to compete for the universities,
and that the payments were concealed from the highest
officials of the universities and the university compliance
officers whose job it was to police the rules and policies in
question. Their principal defense, however, was that they
had no intent to deceive or defraud, because they genuinely
believed the cynical proposition that the universities
engaged in massive hypocrisy, and were in fact happy for
the defendants to make their secret payments, as long as
the universities were allowed to pretend that they were
being deceived. In other words, defendants maintained
that they believed that the universities wanted to obtain
the best available athletes for their teams (which made
more money for the universities the more successful they
were on the basketball court) by any means necessary,
so long as the universities could claim “[p]lausible

52a
Appendix A
deniability.” App’x at 640. The defendants offered evidence
that they maintain would have supported their asserted
lack of intent to deceive the universities, but some of that
evidence was excluded by the district court. A principal
prong of their appeal relates to those evidentiary rulings.
As the majority acknowledges, to secure a conviction
the government was required to prove beyond a reasonable
doubt that the defendants intended to deceive the
universities. The defendants were permitted to argue that
they believed that the universities knew, in general terms,
what the defendants were doing, precisely because that
belief, if they genuinely held it, would defeat an intent to
deceive. But what sort of evidence could help the defendants
persuade the jury to entertain a reasonable doubt about
whether the defendants genuinely believed what they
claimed they believed? If, for example, the president of
one of the universities had called the defendants in to his
or her office, and told them that the university welcomed
their efforts to secure the best basketball players for its
team, by bribing the athletes if necessary, but that the
defendants had to keep those payments secret, surely that
would support the conclusion that the universities were
not defrauded; if defendants claimed that they had been
told by their superiors at the company that the university
president had conveyed that message to the head of the
company, such statements (whether or not true) would
also support the conclusion that the defendants genuinely
believed that the university was not being deceived,
regardless of whether the university’s compliance officers
were in on the secret.

53a
Appendix A
But under the defendants’ theory of how the world
works, such conversations would be extremely unlikely
to occur, and indeed, the defendants did not claim that
any such conversations had taken place. The hypocritical
façade the defendants claim they believed existed
would not permit any but the most oblique signals of
approval, for any explicit authorization of the payments
risked blowing the cover of the whole industry. So
the defendants were reduced to offering what they
contended was circumstantial evidence to support their
claimed belief. That evidence took various forms, but two
principal examples consisted of conversations, recorded
without their knowledge, between two of the defendants
themselves or between individual defendants and athletic
coaches at the victim universities and other institutions,
which they argue explained and justified their cynical
conclusions. In effect, they wanted to argue that anyone
who operated in their milieu would have been led to believe
exactly what they purportedly believed.
The problem for the district court is that this kind
of evidence could be taken by a jury in several ways.
On the one hand, such evidence arguably supported the
conclusion it was offered to prove: that a reasonable person
in the defendants’ position would have believed that the
universities did not care what they did, so long as the result
was a winning team and so long as any under-the-table
payments were kept secret. But on the other, a jury could
also take such evidence as indicating two further possible
conclusions, which might inure to the defendants’ benefit,
but which were distinctly not legal defenses.

54a
Appendix A
First, the defendants’ argument is easily confused
with a different argument, that was also part of the
defendants’ professed belief system: that their activities
did not really hurt the universities, or even expose them
to significant risk, but instead offered the universities only
great financial benefits. Much of the evidence offered by
the defendants suggested that, if the universities cared
only about the financial bottom line of their athletic
programs, they should not mind occasional (or even
frequent) violations of the NCAA rules. The proffered
evidence suggested that such breaches were common,
were infrequently detected, and when detected resulted
in penalties that were insignificant in comparison to the
financial benefits of maintaining successful teams. But
that argument does not support a valid defense. It is not
a defense to fraud, for example, that the fraudster lies to
investors to get them to buy a stock that the fraudster
genuinely believes will “work out well in the end” for the
investors, but that they would not buy if told the truth;
such a belief does not justify selling stock by means of
material misrepresentations. See, e.g., United States v.
Calderon, 944 F.3d 72, 90-91 (2d Cir. 2019). Thus, given the
absence of any direct evidence that the universities knew
of and approved the payments, evidence that the system
did not provide adequate incentives for rule compliance
more directly supported the proposition that someone in
defendants’ position could have genuinely believed that
he was acting in the university’s financial interest — a
non-defense that might have confused the jurors.
Second, evidence of this sort might persuade a
reasonable juror, already skeptical of the universities’

55a
Appendix A
professed belief in amateurism, to conclude that the
NCAA and the universities were corrupt, exploitative
institutions who deserved whatever happened to them,
and that the defendants, by helping the athletes’ families
secure some small portion of the compensation they were
fairly due for their valuable labor and for the risks to their
health and future careers that they were taking by playing
sports, were the good guys. Such a “Robin Hood” defense
— that the defendants were essentially robbing the rich
to help the poor — is of course also not a legal defense.
How much and what kinds of evidence should be
allowed into the trial, and how to balance the probative
and prejudicial aspects of particular pieces of evidence,
is a delicate task that is confided to the sound discretion
of the district court. See United States v. White, 692 F.3d
235, 244 (2d Cir. 2012) (“We review evidentiary rulings
. . . for abuse of discretion.”). Like the majority, I am loath
to second-guess the judgments of the experienced district
judge, who was much closer to the lengthy and complex
course of this prosecution than are we appellate judges, on
these delicate questions. For the most part, I reach similar
conclusions to those presented by the majority, finding the
decisions of the district court to be reasonable resolutions
of the difficult balancing required. Moreover, where I
might think that particular rulings were erroneous, even
taking account of the deferential standard of review, there
are further questions about whether, in light of the full
record of the case, any such errors require a new trial,
or were merely harmless. Trials are rarely perfect, and
individual pieces of evidence are not usually so compelling
that their presence or absence is potentially dispositive
of the case.

56a
Appendix A
Finally, before turning to the individual rulings
contested by the appellants, let me suggest a framework
for thinking about these close questions. The issue in this
case, as the majority opinion clearly and correctly notes, is
not whether we like or despise the system created by the
NCAA rules, nor whether we think that system is rife with
the potential for, or with widespread examples of, cheating
of all kinds. It is whether these defendants deceived these
particular victims about the particular athletes to whose
families the payments at issue in this case were made. To
my mind, then, the closer the evidence comes to supporting
the view that the defendants believed that the specific
payments proven in this case were secretly condoned
by the particular university involved, the more likely
that the probative force of the evidence outweighed the
potential prejudice identified above. In contrast, the closer
the evidence comes to being generalized evidence that
“everybody does it,” or that the system itself is corrupt
or exploitative in some larger sense, the more likely it is
that the prejudice of suggesting that the jury should reject
the entire enterprise will outweigh the more tangential
value it might have in supporting defendants’ professed
belief that they were not really deceiving the people from
whom they were, concededly, hiding what they were doing.
Though I agree with the majority that we should affirm
many of the district court’s evidentiary rulings because
the prejudicial effect of suggesting non-defense defenses
is too great, I write about some of them to point out that
the evidence is not irrelevant. It has probative value —
but the district court made a reasonable decision to keep
it out on grounds that its prejudicial effect outweighed

57a
Appendix A
its probative value. As to other rulings, however, the
district court’s decision to exclude relevant evidence due
to its prejudicial effect was not reasonable. Ultimately, I
conclude that the erroneous rulings were not harmless, at
least as to certain defendants and certain counts.
II. Evidence Properly Excluded
A.

The Expert Report

The defendants’ expert report is an example of a
generalized piece of evidence that the district court
was well within its discretion to find substantially more
prejudicial than probative, because it tends to signal that
universities benefit from this sort of fraud and provides
limited probative value as to the defendants’ intent to
deceive. The majority assumes that the report would have
been helpful to the defense before holding that the district
court did not abuse its discretion in ruling that the report
was substantially more prejudicial than probative. When
reviewing the district court, we “must look at the evidence
in a light most favorable to its proponent, maximizing its
probative value and minimizing its prejudicial effect.”
United States v. Jamil, 707 F.2d 638, 642 (2d Cir. 1983),
quoting United States v. Brady, 595 F.2d 359, 361 (6th
Cir. 1979). An evidentiary ruling should not be overturned
unless it was “arbitrary and irrational.” White, 692 F.3d
235, 244 (2d Cir. 2012) (internal quotation marks omitted).
Under that standard of review, I too would affirm the
district court’s exclusion of the report.

58a
Appendix A
The report provided some support to the defendants’
assertion that they did not intend to deceive the
universities. The expert report opined that the value of an
athlete to a university generally outweighs the penalties
associated with recruiting the athlete in violation of the
rules, assuming that the university is caught breaking
the rules at all. The jurors were aware of the various
sanctions that the NCAA can impose for rule-breaking;
such evidence was part of the government’s argument
that the defendants’ conduct harmed the universities by
exposing them to the risk of financial loss. The expert
report could have provided the jury with the other side
of the equation: the myriad of benefits that a university
may receive from recruiting and retaining athletes and
creating successful sports programs.
With that information, the jury could have inferred
that the defendants and the universities, as participants
in the system, knew of these benefits and of the limited
costs of being caught violating the ostensible rules of
the system. The jury might then have concluded that
the defendants believed that the universities knew that
activities like theirs were very likely occurring within
their programs, and deliberately closed their eyes to such
activities because the benefits of those actions were very
likely to result in a net positive outcome for the schools.
The defendants’ case rested on why they acted the way
they did, and this evidence would have been probative as to
their intent precisely because it could have helped explain
how the world of NCAA recruiting works.

59a
Appendix A
But the evidence could have also been extremely
prejudicial. The defense admitted that the report showed
that the benefits of breaking NCAA recruitment rules
generally outweigh the risks, but the report did not address
the specific practices of any of the universities involved in
this case. The district court aptly noted that highlighting
the benefits that universities reap from recruits “would
have been likely to turn the jury’s focus to the wisdom or
fairness of the NCAA rules that were violated.” S. App’x
at 48. In turn, that focus may have influenced the jury to
put the NCAA rules on trial, and if they believed the rules
were unreasonable, there would be a substantial risk the
jurors would overlook the defendants’ fraud, even if the
evidence demonstrated that the particular universities
involved were trying to run clean programs.
The report also could have pushed the jury towards a
finding of “no harm, no foul.” As the district court noted,
the expert report explains the benefits a university could
gain after an athlete receives a scholarship to attend the
school, “that is after the immediate deprivation of property
. . . [takes] place.” S. App’x at 51. Under the law, it makes
no difference whether a victim of fraud ultimately benefits
from the immediate loss caused by the fraudulent conduct.
See Calderon, 944 F.3d at 90 (describing a “no ultimate
harm” jury instruction). In other words, if the expert
report had been admitted, the jury might have looked
to the benefits a university may receive from recruits to
excuse the defendants’ fraudulent conduct, even though
the fact that a victim ultimately profited as a result of the
fraud is not a valid excuse for deliberate deceptive conduct.

60a
Appendix A
The district court had to balance these competing
concerns. While the report provided some probative value
supporting a valid defense, it was prejudicial because
it could have shifted focus to the reasonableness of the
NCAA rules or to whether the universities ultimately
benefitted in the long run. After balancing these issues,
the district court found that the report’s prejudicial value
substantially outweighed its probative value. While the
opposite decision might also have been acceptable, I cannot
find the district court’s decision “arbitrary and irrational.”
White, 692 F.3d at 244 (internal quotation marks omitted).
A proper use for the report is specific: to support that
the defendants held a belief that the universities in this
case knew what they were doing. Its improper uses are
general: to suggest that the entire system is unfair and
universities generally benefit from rules violations even
when they are caught. The report’s general nature —
addressing the system of high-level college athletics as a
whole — reduces its probative value as to the particular
conduct involved in this case and enhances, rather than
diminishes, its prejudicial effect. Thus, the district court
was well within its discretion to find that the risk of
prejudice in admitting the expert report substantially
outweighed its probative value.
B. Details of Louisville’s Prior Infractions
The district court also precluded the defense from
presenting evidence of Louisville’s previous recruiting
infractions detailed in an NCAA Committee on Infractions
(“COI”) decision. The COI found that Louisville provided
prospective recruits with exotic dancers and prostitutes

61a
Appendix A
during visits to the school. The defendants sought to
introduce the COI ruling as proof of their lack of intent
to deceive, because Louisville’s history of rule-breaking
may have persuaded the jury that the school tolerated
such conduct. Instead, the court allowed the defendants
to introduce a stipulation indicating that Louisville
“committed Level I-Aggravated violations,” which are
violations that “seriously undermine[] or threaten[] the
integrity of the NCAA Collegiate Model.” App’x at 1167.
The stipulation confirmed that Louisville was sanctioned
for the violation. In the court’s view, the stipulation allowed
the defendants to make their argument — that they
genuinely did not believe they were defrauding Louisville
because the school had previously violated the same rules
that the defendants violated — without showing the jury
the specific details in the COI decision.
The defendants argue that precluding them for
introducing the specific violation outlined in the COI
ruling prevented them from showing that Louisville’s
prior violations were far more serious than the payments
at issue in this case. The defendants wanted to show the
jury that Louisville committed extreme violations and did
not suffer much from those violations. That the defendants
knew of these more extreme violations made it more likely
that they believed that Louisville condoned their payments
to the families of recruits.
But that the details in the COI report are more
salacious than those in this case does not necessarily
make those violations more extreme from the standpoint
of the NCAA. Moreover, rewarding teen-aged recruits

62a
Appendix A
with sexual favors is sufficiently repulsive that the jurors
might recoil viscerally from such practices, perceive the
violation as morally worse than providing financial support
for the athletes’ hard-pressed families, and judge the
universities harshly and the defendants minor violators in
comparison. Reasonable minds can differ about whether
this kind of prejudicial effect is so overwhelming as to
justify excluding the evidence, but the district court’s
ruling was entirely reasonable and far from “arbitrary
and irrational.” White, 692 F.3d at 244 (internal quotation
marks omitted). The defendants were able to argue that
Louisville committed Level I-Aggravated violations
without focusing the jury on the sordid details of the actual
report, which may have influenced the jury in ways that
were not relevant to the trial.14
C.

NCAA Reinstatement Guidelines

I would also affirm the district court’s decision to
exclude evidence that could have rebutted the testimony
of the compliance officers of the victim universities. The
14. The district court also excluded the COI report because
the decision was merely “somebody’s opinion of what the facts
were.” App’x at 153. The COI decision, however, was relevant only
insofar as it was probative as to the defendants’ intent; whether the
COI’s findings were correct or not does not affect the defendants’
perception of those findings. If defendants knew about the report,
the fact that it may have been incorrect in whole or in part does
not matter as to what makes its findings relevant. Although the
district court was within its discretion to exclude the evidence
under Rule 403, the court’s conclusion that the “decision itself was
not a fact,” Majority Op. at 31, does not affect its admissibility.

63a
Appendix A
compliance officers testified that they would not have
allowed awarding a scholarship to an ineligible athlete.
The government wanted to show the jury that the
universities typically followed the NCAA rules, and the
defendants sought to introduce evidence that, in reality,
the schools took calculated risks and awarded scholarships
to elite recruits who they knew would be ineligible for
competition for some portion of the season as a result.
The district court excluded the NCAA’s “StudentAthlete Reinstatement Guidelines” and the defendants’
attempts to cross-examine the compliance officers as to
those guidelines. The guidelines provide for forfeiture
of 30% of the regular season as the maximum penalty
for an athlete who has violated recruiting rules. Thus,
the maximum penalty would allow a rule-breaker to be
reinstated after missing only early-season games. And
that is the maximum punishment; the NCAA may give a
shorter punishment to an athlete whose culpability was
mitigated in some way. The defendants argue that these
guidelines show that a school risks very little in recruiting
an ineligible athlete. The lack of any real punishment
made it more likely that the universities approved of the
defendants’ actions because they would benefit more from
the presence of the athlete than they would be hurt by the
penalty if the payments were discovered.
The district court excluded the guidelines and limited
cross-examination in part because it found that the
evidence was not relevant. The district court was correct
to the extent that evidence that a financially motivated
university might rationally take a calculated risk to

64a
Appendix A
violate the rules in pursuit of the rewards of a successful
program would not show that a particular university was
not, objectively, deceived and defrauded, because a school
cannot take a calculated risk in recruiting an ineligible
athlete unless it is privy to that risk. But the evidence
would have been relevant to the defendants’ state of mind,
that is, as to whether they genuinely believed that the
universities approved of the defendants’ conduct, because
the fact that there was little financial risk involved in
breaking the rules made it more likely that the university
would approve of rule-breaking. So the guidelines had
some relevance to a valid defense.
Nevertheless, it was again w ithin the district
court’s discretion to exclude the guidelines and limit the
defendants’ cross-examination because the risk that the
evidence would lead the jury to consider an invalid defense
substantially outweighed its limited probative value.
The guidelines do not show that the compliance officers
who testified were lying when they testified to their own
efforts to enforce the NCAA rules, nor do they show
that the defendants had any reason to believe that these
particular universities wanted them to violate those rules.
Instead, the guidelines could be taken to suggest that
the NCAA system is a kind of sham, because universities
aren’t really on the hook for violations committed by
people like defendants: the student-athlete may suffer in
the short term, but the universities don’t. Such evidence
may support the general idea that the NCAA and the
universities are the real bad guys here, but that argument
diverts the jury from the legitimate defense that the
defendants thought their activities were condoned by the
victim universities.

65a
Appendix A
III.

Phone Calls Involving Defendants and Coaches

The district court also excluded several phone calls
that the defendants argue would have helped them prove
that they did not intend to defraud the universities in
this case. These conversations present the most difficult
issues in this appeal. The defendants challenge the district
court’s rulings as to only a few of those calls. Though the
majority gives short shrift to the defendants’ arguments,
the calls present close questions as to whether the district
court erred in excluding them. As to certain of the calls,
indeed, I conclude that the evidence should have been
admitted.
A.

The Call Between Code and Dawkins

First, the district court excluded a phone call between
defendants Merl Code and Christian Dawkins, in which
they discussed their understanding that the family of a
recruit was asking Kansas for money before committing
to play basketball at the school. During the call, Code
and Dawkins agree that paying the athlete “has to be
worth it for the school . . . for the money they’ll make off
[of the athlete].” App’x at 1707. Although the athlete being
discussed was not implicated in the scheme charged in
the indictment, the defendants contend that the call was
relevant because it demonstrated that they believed the
universities were happy to violate the rules if they received
valuable players for their teams.
The majority characterizes the call as irrelevant,
because it did not concern any of the recruits in the case
and occurred after the defendants made the payments

66a
Appendix A
at issue. But the conversation clearly reflected how Code
and Dawkins viewed the world of NCAA recruiting, and
it strikes me as a strained assumption that these views
had somehow developed in the few weeks between the
time that the defendants made the last of the payments
and the date of this conversation. The defense here is that
the defendants believed that they were not deceiving the
universities, and the phone call had some probative value
as to that belief.
But we are back to the balancing act that the district
court was obligated to apply throughout this trial. The call
may have had some probative value as to the defendants’
general states of mind, but that probative value is limited
and partial. To the extent the call could be taken to
suggest what the defendants believed the universities
wanted, any reflection of that belief is inferential: the
defendants’ belief in the great financial value to Kansas of
the presence of a particular recruit might lead one to infer
that they thought the universities wanted their apparel
company to make whatever payments were necessary to
induce certain athletes to commit to the universities.
A more direct inference, however, is that the
defendants believed simply that what they were doing
would benefit Kansas in the long run. The defendants
do not state that they thought that Kansas officials were
aware of or approved of the payments being demanded by
the recruit being discussed, let alone that they thought the
university was aware of or would approve of the payments
made to the Kansas recruit whose family they themselves
paid. In fact, they do not reference the payments at issue
in this case at all during this conversation.

67a
Appendix A
While I find the issue closer than the majority does,
in the end, it was reasonable for the district court to
conclude that a conversation showing that the defendants
believed that universities generally benefit from rulebreaking is too distant from the issue at the heart of this
case — whether the defendants genuinely believed that
these specific victim schools knew and condoned what they
were doing — and too proximate to the invalid defense
that they were deceiving Kansas officials for their own
good. Evidence of such a belief may confuse the jury about
what is and what is not a proper defense, and generates
precisely the kind of prejudice the district court was
trying to avoid.
B. Calls Between Defendants and Coaches
The district court also excluded certain calls between a
defendant and a representative of a school. The defendants
argue that these calls corroborated their claim “that the
basketball coaches at the Universities specifically asked
them to break NCAA rules” and helped refute testimony
from a witness who testified that Kansas basketball
coaches “wouldn’t have liked it very much” if they had
been told of the payments to the recruits’ families.
Appellants’ Br. at 116. The district court excluded the
calls as irrelevant and prejudicial, and the majority lumps
them together and upholds the district court’s decision.
I agree that one call was properly excluded because
it involves a coach from a school that is not involved in
this case — and indeed, defendants themselves do not
challenge the exclusion of this call on appeal. In that
call, the coach tells Dawkins that he “can get [Dawkins]

68a
Appendix A
what [he] need[s]” to secure a recruit. App’x at 1687. The
call may have fueled defendants’ good faith belief in the
cynical proposition that “all the universities do it; they
just don’t want to be told about it.” But, as the majority
says, the risk of prejudice associated with admitting a call
about miscellaneous cheating at another school to tar the
victims in this case, or to intimate that the alleged victims
in this case held the views that the defendants claim they
attributed to universities, is a bridge too far. It would
divert the focus of the trial from whether the victims here
were defrauded to whether the jury should believe that
college athletics is rife with corruption.
But two of the excluded calls involved coaches from
the universities in this case, and the majority glosses over
the probative value of those calls. In one, Dawkins and
a Louisville assistant coach discussed a recent business
dinner the coach had attended where one of his associates
“was trying to pick [his] brain on [Dawkins].” Id. at 1717.
The coach told the associate that he “[doesn’t] really talk
about” his and Dawkins’s relationship; he keeps that
connection “off the book[s].” Id. In another call, a Kansas
assistant coach called Code to discuss a different recruit
who is not implicated in the conduct charged in this case.
In that call, the coach described the recruit’s family
“ask[ing] about some stuff.” Id. at 1713. The coach told
the family “we’ll talk about that if you decide [to come to
Kansas].” Id. The coach then told Code “I’ve got to just
try to work and figure out a way. Because if that’s what
it takes to get him[,] . . . we’re going to have to do it some
way.” Id. The coach stated that he would “talk with Jimmy
[Gatto]” about funneling money to the family through an

69a
Appendix A
amateur team. Id. at 1714. Code says he will “talk to Jim
today too.” Id. The coach then described how he might
also ask Gatto to help pay for the recruit’s brother to visit
Kansas despite acknowledging “not [being] allowed to pay
for it.” Id. at 1715.
The majority gives two reasons why these calls should
be excluded. First, the calls would “confuse[] the jury, as it
would have required the jury to learn about individuals not
involved in the case.” Majority Op. at 28-29. Alternatively,
the majority would hold that the calls were irrelevant
because they could not support a valid defense unless the
coaches were “unconflicted and acting in good faith.” Id.
at 29. Neither reason is persuasive.
As to the first reason, I would have more confidence
in the jury. The government was concerned that the
calls involved people that the jury had not heard about.
But the calls were not overly complicated; they involved
two defendants and two coaches from victim schools
discussing top basketball recruits. If the calls would have
“required the jury to learn about individuals not involved
in the case,” Majority Op. at 28-29, surely the number of
such individuals was not so large as to justify excluding
otherwise relevant evidence because the calls mentioned a
few individuals who were not a part of the charged conduct.
A s to the second reason, the majority makes
inferences best left for the jury to decide. The majority
notes that the calls are probative of a valid defense only
if the coaches on the calls were “unconflicted and acting
in good faith” on behalf of their university, United States

70a
Appendix A
v. D’Amato, 39 F.3d 1249, 1258 (2d Cir. 1994), but that is
not technically correct. Rather, the calls support a valid
defense if the defendants have a good faith belief that the
coaches “appear[] to be unconflicted and acting in good
faith” regardless of whether the coaches are actually in
conflict with their schools. Id. at 1257-58. These calls could
very well have helped the jury infer such a good faith
belief. The first call could have supported the inference
that Dawkins genuinely believed that, while Louisville
did not want the defendants’ malfeasance advertised to
the public, the school tacitly condoned the rule-breaking,
so long as it was kept “off the book[s].” App’x at 1717.
The second made it more likely that Code and Gatto
believed Kansas officials expected to get recruits in ways
that violate the NCAA rules because the call is itself an
example of a Kansas official doing just that.15
The government argues that conversations with
assistant coaches inherently lack probative value,
because the coaches themselves were lower level
employees who had their own reasons to circumvent
the universities’ policies — they wanted to keep their
jobs by fielding winning teams, giving them a motive to
15. The district court also excluded the calls because they
occurred after a majority of the alleged payments were made
and were therefore not relevant to the defendants’ state of mind
at the time those payments were made. But the timing is very
close, and the conversations provide insight into the minds of these
defendants. Given the proximity in time, that the calls occurred
a few weeks after the payments at issue does not mean that they
are irrelevant to the defendants’ state of mind at the time the
payments were made.

71a
Appendix A
violate NCAA recruiting rules themselves or to wink at
violations by others, whether or not the highest officials
of the universities sincerely demanded that the coaches
operate within the rules. But to give blanket credence
to this argument seems to me overly simplistic. If the
coaches believed that they needed to win to retain their
jobs, their financial incentive aligned with that of the
universities in fielding a winning team, and the pressure
on them to win or be fired emanated from the officials
who publicly professed a commitment to compliance. The
assistant coaches cannot simply be written off as minor
functionaries. Wherever they ranked on an organization
chart, they were essentially the contact persons for the
defendants, who were their counterparts at the apparel
company. If they were implicated in the defendants’
activities, even as they insisted on hiding their approval,
a jury could reasonably have inferred that the defendants
held a good faith belief that the attitudes of these coaches
reflected the view of the universities involved. Whether
the assistant coaches were too low in the hierarchy for a
reasonable person in Code’s or Dawkins’s position to infer
that they spoke for the university is a judgment for the
jury to make, and the jury was not allowed to hear the
calls to decide what inferences to draw.
The evidence from which the majority infers that
these coaches were not unconflicted and were acting in
bad faith should have been left to the jury. The majority
cites a conversation between Code and Dawkins in which
they reference their understanding that Head Coach
Rick Pitino of Louisville wanted “plausible deniability”
about recruiting infractions. Id. at 640. But that Pitino

72a
Appendix A
wanted plausible deniability does not necessarily mean
that he knew Louisville would not tolerate cheating. It
could equally well mean that he was speaking for the
university itself, which (the defendants’ theory held)
wanted to get winning players but also wanted precisely
such deniability. Id.
The majority also cites the coaches’ conduct on two
of the excluded calls as indicative of conflict. In one call,
the coach closed his door while talking on the phone. In
another, the coach made statements about keeping his
relationship with Dawkins off the books. But while these
actions could be construed, as the majority interprets
them, as “cut[ting] against any argument that the coaches
were unconflicted and acting in good faith,” Majority Op.
at 29, they could also have indicated that the universities
wanted deniability as to impropriety that they condoned.
It all depends on from whom the coaches wanted to
keep things secret. A reasonable jury could infer that
the coaches were afraid not that the universities would
disapprove of their condoning the defendants’ conduct, but
that the coaches knew — as defendants argued — that
the universities could not tolerate having it known that
they were condoning it. This is a subtle but important
distinction. A coach would not be conflicted if he was
doing exactly what the university wanted: winking at the
defendants’ off-the- books payments to players’ families,
but preserving the façade that he was not involved and
did not know what was going on.
Aside from these calls’ probative value as to the
defendants’ intent, the defendants argue that it would have

73a
Appendix A
also called into question the testimony of a cooperating
witness — another company representative, Thomas
Joseph Gassnola — who testified that he would not have
told Kansas officials that he paid a recruit’s family because
“[the university] wouldn’t have liked it very much.” App’x
at 293. The majority does not believe that these calls
would contradict Gassnola’s testimony because, in their
view, the calls showed that the coaches “knew what they
were doing was wrong.” Majority Op. at 30. But “wrong”
is a treacherous word in this context. Of course, the
payments were “wrong” insofar as they violated NCAA
rules, and anyone, from the defendants to the coaches to
the university presidents, who tacitly or overtly condoned
such payments would not want that information to
become publicly known. But that the coaches — and the
defendants — knew that what they were doing violated
NCAA rules, does not mean that they knew that high-level
university policy-makers were genuinely disapproving
of the payments. Kings who would like “meddlesome
priest[s]” disposed of 16 generally would not be happy to
have those who take the hint report back overtly about
what they had done.
16. The remark attributed to King Henry II of England, in
reference to Archbishop Thomas Becket derives from various
chronicles and is formulated in different ways in the historical
sources and in literary works derived from them. The most famous
formulation, “Will no one rid me of this meddlesome priest?” comes
from Edward Anhalt’s screenplay for the 1964 film Becket, based
on a play by Jean Anouilh, which uses a slightly different version
of the remark. Whatever degree of plausible deniability the King
may have thought he had did not keep him from later regretting,
and doing penance for, the resulting murder of Becket, and has
not saved him from the verdict of history as to his responsibility
for the act.

74a
Appendix A
It would not be necessary for a jury to conclude that,
or even to entertain reasonable doubt as to whether, the
highest university officials were in fact as hypocritical
as the defendants professed to believe they were. The
excluded calls reflect conversations that the defendants
had with university representatives at their own level of
contact that could lead a reasonable person in defendants’
position to believe that those officials were speaking for
their employers in condoning the rule-breaking. The
defense’s argument was that the defendants really did
believe that this was the case. Even if it heard the excluded
calls, the jury could have rejected that defense and found
that the defendants and the coaches with whom they dealt
were guided by their own self-interest. But it could also
have inferred that, under all the circumstances, there
was reasonable doubt about whether the defendants
believed that the universities simply preferred not to
be told what was happening. These are issues that go to
the heart of the defense, and the jury should have been
permitted to draw its own conclusions from this evidence,
which reflected actual discussions between defendants
and representatives of the “victimized” schools. Thus,
the district court’s conclusion that these two calls were
irrelevant was erroneous.
But was the probative value of these two calls high
enough to make the district court’s decision under Rule
403 arbitrary and irrational? In the first call, the coach
implied that his relationship with Dawkins was something
that he needed to hide by keeping it “off the book[s].” App’x
at 1717. On the call, the coach referred to Louisville’s
success in recruiting “five-stars” that year and opined

75a
Appendix A
that this was the “[b]est class in Coach Pitino’s history.”
Id. at 1719. Dawkins then replies “[o]n the heels of a . . .
whore scandal,” referencing the misconduct reported in
the COI findings. Id. The call did not directly implicate
the assistant coach (or Louisville) in Dawkins’s rulebreaking. The coach did not say, for example, that he
kept his relationship with Dawkins off the books because
Dawkins was assisting his team to recruit players in ways
that broke NCAA rules — though of course the jury could
have certainly inferred as much from the call. The call’s
probative value is also reduced by the fact that the coach
in question was only a young assistant, far removed from
the policy-making apparatus of the university.
Still, the conversation cannot be considered mere
evidence of generalized corruption in college athletics. It
involves statements made to one of the defendants by a
basketball coach who was a key point of contact for that
defendant with Louisville. If the government is going to
prosecute people at Dawkins’s level, who are not likely to
have direct contact with university presidents, athletic
directors, or even head coaches, excluding evidence of
what such defendants were told by university officials at
their own level cannot be justified.
In the second call, an assistant coach from Kansas
directly discussed rule-breaking with Code, though the
recruit at issue was not implicated in the conduct charged
in this case. The coach said that he needed “to figure out a
way” to get money and housing for a recruit’s family, and
admitted that he would have to route the money through
a third party to avoid detection by the NCAA. Id. at

76a
Appendix A
1713. The coach then mentioned that he would talk with
Jimmy Gatto — another defendant in this case — about
how to get the money to the family. Surely a conversation
in which a coach from a victim university discusses with
one defendant soliciting help from another defendant to
break the NCAA rules would be extremely relevant to
whether those defendants believe that the university the
coach represents condones such rule-breaking.
On the one hand, the defendants’ case hinged on
showing that they believed they were not deceiving the
universities, but they had few opportunities to make
their case to the jury. On the other hand, the government
was able to prove intent from “the scheme itself” if “the
necessary result of the . . . scheme [was] to injure others.”
D’Amato, 39 F.3d at 1257 (internal quotation marks
omitted). Thus, the probative value of these calls, when
considering that the central defense was to challenge
scienter, was high. Though these are close and difficult
judgments to make, I respectfully conclude that the
district court’s evidentiary rulings failed to appreciate
the substantial probative value of these calls. In fact, the
district court concluded — and the majority agrees — that
the calls had little to no relevance to a valid defense in the
first instance. In so doing, the district court “obviated
the need for [a Rule 403] balancing and cast doubt as to
the balancing made” by “shifting the . . . balancing test
considerably in the Government’s favor.” White, 692 F.3d
at 247. Thus, I would conclude that excluding the calls
exceeded the wide bounds of the district court’s discretion
to exclude evidence under Rule 403.

77a
Appendix A
IV. Harmless Error
That conclusion does not end our inquiry, however. We
will not overturn a conviction if the error was harmless.
A harmless evidentiary exclusion is one in which “we can
conclude with fair assurance . . . did not substantially
influence the jury.” United States v. Oluwanisola, 605 F.3d
124, 133 (2d Cir. 2010) (internal quotation marks omitted).
Thus, we will still affirm if it is “highly probable that the
error did not affect the verdict.” United States v. Stewart,
907 F.3d 677, 688 (2d Cir. 2018) (internal quotation marks
omitted).
As a preliminary matter, the excluded calls would not
logically affect Code’s convictions for wire fraud against
Louisville and conspiracy to commit wire fraud. The
erroneously excluded call between Code and the assistant
coach from Kansas is harmless as to Code because it is not
likely that the call would influence the jury’s conclusion on
Code’s intent to deceive Louisville. There is no evidence
that Code knew of the call between Dawkins and the
Louisville coach, so there is no reason to believe that the
other excluded call would have substantially influenced
the jury’s verdict on that count. Finally, the errors would
not affect Code’s conviction for conspiracy because his
conviction for wire fraud coupled with the government’s
ample proof of the existence of a conspiracy supports his
conviction on the conspiracy count. See Calderon, 944
F.3d at 92.
Whether the errors affected Gatto’s or Dawkins’s
convictions is a closer question. Gatto was convicted of

78a
Appendix A
three counts: wire fraud as to Louisville and Kansas and
conspiracy to commit wire fraud. Dawkins, like Code,
was charged and convicted for wire fraud as to Louisville
and conspiracy to commit wire fraud. The erroneously
excluded call between Dawkins and the Louisville
coach was directly relevant to his understanding of the
expectations of that university, and the call between
Code and the Kansas coach may have influenced the
jury’s verdict as to Gatto because the call was probative
of Gatto’s intent to deceive Kansas.
W hen assessing whether improperly excluded
evidence was harmless error, we consider, inter alia,
the importance of the evidence to the defense, whether
the evidence is cumulative, and the strength of the
government’s case on the factual issue. Oluwanisola, 605
F.3d at 134. “[T]he strength of the government’s case is
the most critical factor in assessing whether the error
was harmless.” United States v. McCallum, 584 F.3d 471,
478 (2d Cir. 2009).
The government’s evidence on fraudulent intent was
not anemic. The jury was allowed to infer “fraudulent
intent . . . from the scheme itself.” D’Amato, 39 F.3d at 1257.
The government supported that inference by presenting
evidence tending to indicate that Louisville, Kansas, and
North Carolina followed NCAA rules. Compliance officers
from each university testified that they enforced — and
trained their staff and players to comply with — NCAA
rules because the NCAA would penalize the universities
or their coaches for any violations. Gassnola testified
that Kansas’s coaches “wouldn’t have liked it” if he let

79a
Appendix A
them know that the defendants were paying money to the
families of recruits, presumably to support the inference
that the defendants knew that the schools did not approve
of their conduct. App’x at 293. The government used its
closing argument to stress that the defendants endeavored
to conceal their actions at every turn: they used burner
phones, made payments using cash and multiple bank
accounts, and discussed the need to be careful when
talking around others. In sum, the government’s case
centered on circumstantial evidence that could indicate
to a jury that the defendants’ arguments that they did
not intend to deceive the universities were unpersuasive.
The jury agreed with the government after deliberating
for less than three days.
But the government’s evidence could have also
supported the defendants’ theory that they wanted to hide
their payments from the NCAA, while being careful to
give the universities plausible deniability by not discussing
their actions openly with certain university officials. That
the schools had compliance officers to enforce NCAA
rules, and that a university “wouldn’t have liked it” if it
knew that the defendants were paying money to a recruit’s
family, does not directly negate that theory because the
defendants’ job was to keep the rule-breaking under wraps
from all parties, including the universities themselves.
That does not mean, however, that the universities were
deceived if they were in fact indifferent to whether rules
were broken, so long as the violations were sufficiently
hidden from the university’s leadership, the NCAA, and
the public. And crucially, the jury did not need to agree
that what the defendants believed was happening was,

80a
Appendix A
in fact, happening. The defense simply needed to create
reasonable doubt as to the defendants’ belief about what
the universities knew about their scheme.
I cannot find, with high probability, that the district
court’s exclusion of the call between Code and the assistant
coach from Kansas did not affect Gatto’s conviction for
wire fraud as to Kansas. Stewart, 907 F.3d at 688. In the
call, the coach admitted that he knew that paying for a
recruit’s brother to visit the school violated the NCAA
rules, yet he planned to ask “Jimmy” for help in routing
funds to the family through an amateur team, all in the
hopes of getting the recruit to eventually commit to
Kansas because “it’s [his] job” to do so. App’x at 1715.
Had the jury heard this call, it may have believed that the
coach did call Gatto to ask him to provide the money. In
turn, that would make it more likely that Gatto genuinely
did not intend to defraud Kansas by his actions at issue
in this case. Of course, just because a coach at the school
asked Gatto to break the NCAA rules in one instance does
not mean that the university condoned or approved of such
rule breaking in others, but it does make it more likely
that Gatto believed that he was not defrauding Kansas.
Given that Gatto exercised his right not to testify at trial,
the call would have been critical to understanding what
was in Gatto’s mind near the time that these payments
were made. By excluding the call, the district court may
have substantially affected the jury’s decision to find Gatto
guilty of wire fraud as to Kansas.
The error, however, was harmless as to Gatto’s
convictions for w ire fraud against Louisville and

81a
Appendix A
conspiracy to commit wire fraud. As the defense admitted
in closing, the jury heard evidence that Gatto called
Coach Pitino after Code asked Gatto to route money to
a Louisville recruit. The defense argued that the only
reason Gatto would call Coach Pitino immediately after
receiving this request would be to ask him if that is what
he (and Louisville) wanted, but the jury rejected that
theory. The excluded call between Code and the Kansas
coach would not have provided the jury with anything
more to help them find that Gatto did not intend to
deceive Louisville, and there is no reason to believe that
Gatto knew of the excluded call between Dawkins and
Louisville. Because Gatto’s conviction for wire fraud as
to Louisville was not affected by the excluded calls, that
conviction stands. Given Gatto’s substantive conviction,
the jury’s verdict convicting him of conspiracy to commit
wire fraud also stands.
The district court’s exclusion of the call between
Dawkins and the assistant coach from Louisville was
not harmless as to Dawkins’s convictions, however.
The government argues that there was “overwhelming
evidence” that Dawkins knew that Louisville did not
approve of the payments because he admitted that they
“could not be disclosed to the Universities (or coaches).”
Appellee’s Br. at 75. The call discussing Pitino’s “plausible
deniability, App’x at 640, and Dawkins’s admission that he
“would never tell Rick [Pitino] anything . . . because I don’t
want to put him in jeopardy,” Supp. App’x at 142, could
support an inference that Dawkins knew that Coach Pitino
and Louisville did not want him to make the payments
at issue in this case. But if the excluded call showing a

82a
Appendix A
coach from Louisville describing his relationship with
Dawkins as “off the books” was shown to the jury, App’x
at 1718, that might have changed the jury’s perspective on
Dawkins’s argument that he was trying to give Pitino and
Louisville plausible deniability in the event of an NCAA
investigation, despite their knowing full well what was
occurring. Because Dawkins too exercised his right not to
testify, this call was a crucial piece of evidence that could
have helped support the defense’s theory about intent
when little other evidence was available.
In excluding the call, the district court may have
substantially affected the jury’s decision to find Dawkins
guilty of wire fraud as to Louisville, and the error
also necessarily affected Dawkins’s conviction on the
conspiracy count. To support a conviction for conspiracy
to commit wire fraud, the government has the burden
of proving “that the defendant acted with specific intent
to obtain money or property by means of a fraudulent
scheme.” United States v. Carlo, 507 F.3d 799, 801 (2d
Cir. 2007). Thus, to find Dawkins guilty of conspiracy,
the jury must have found that he intended to defraud a
victim university. Given that the district court’s error
may have influenced the jury’s decision as to Dawkins’s
intent to deceive Louisville, and given that there was no
evidence that Dawkins intended to defraud any other
victim university, I cannot conclude with confidence that
his conviction for conspiracy was not substantially affected
by the evidentiary exclusion. By excluding the calls, the
district court erroneously deprived Gatto and Dawkins of
a fair opportunity to convince the jury that they did not
intend to deceive the victim universities. Thus, I would

83a
Appendix A
overturn Gatto’s conviction on count three and Dawkins’s
convictions on counts one and two.
***
I fear I have belabored the evidentiary issues in this
case at undue length. For the most part, I agree with
the majority’s bottom line: the nature of the prosecution
confronted the able district judge with a series of delicate
and difficult evidentiary problems, to which the judge
for the most part made reasonable, if not indisputable,
responses. In many cases, it is easy to police a line
between evidence that supports a defendant’s good faith
and evidence that merely attacks the reputation or probity
of the victims. In this case, however, the vices with which
defendants sought to tar the alleged victims were not
extraneous to the alleged fraud. This was not a case in
which the defendants sought to prove that their victims
had done bad things that had little or nothing to do with
the scheme of which defendants were accused, but which
might make a jury feel that the defendants were unworthy
of the law’s protection.
Here, the defendants’ argument was that the things
the government said they stole from the universities —
the scholarship money provided to the athletes and the
university’s ability to comply with NCAA rules and avoid
penalties — were things that they reasonably believed
the universities were in fact happy enough to give up in
the pursuit of greater financial benefit. The defendants
claimed to believe that by not openly acknowledging the
rules violations they committed, they were deceiving

84a
Appendix A
no one, because the universities in fact knew that such
violations happened regularly. The universities did not
know of the specific payments made by these particular
defendants not because the defendants pulled the wool
over the victims’ eyes, but because the alleged victims
desired not to know too much, in order to preserve a
hypocritical pretense of compliance while pursuing
the financial and reputational benefits of maintaining
successful athletic programs without paying the athletes
whose skills and hard work generate the profits that go
to the adult coaches and schools.
Such a cynical theory may be a caricature of how
college sports are in fact conducted. No doubt many
university officials and athletic coaches genuinely attempt
to comply with rules derived from a model of amateurism
that some others desecrate, and that is difficult to maintain
in a world where winning games and making money can
come to be seen as the highest goals. To whatever extent
the defendants’ professed beliefs correspond to reality,
evidence to that effect would be difficult to come by; the
essence of the defense is that the universities pretended
to want to run clean programs, and that this pretense
required those who funneled payments to hard-pressed
families of student athletes to operate in secret, as if they
were deceiving universities that themselves were trying
to hide what makes their programs successful. And in
the absence of evidence directly supporting their claims,
defendants fell back on evidence that provides only limited,
indirect support for their specific theory, and that does
so by painting a grim picture of widespread corruption
and hypocrisy without quite engaging the government’s

85a
Appendix A
evidence suggesting that at least these particular victims
were genuinely defrauded.
The district court was ultimately right to try to
prevent the defendants from putting the entire NCAA
system on trial for its exploitation of athletes under
circumstances that make violations of the sort in which
these defendants engaged all but inevitable, or even to
appear morally justified in providing some recompense
to those whose labor generates the money that enriches
others. Whatever value such a trial might have in the
court of public opinion, and however such a “defense”
might affect the wise judgment of prosecutors as to
what cases are worth the expenditure of significant law
enforcement resources, the legal issues in a case like this
are far narrower.
By the same token, a venture into the underside of
college athletic recruiting opens up significant questions
about the motivations and beliefs of the participants. We
should be particularly careful not to sweep too broadly in
declaring out of bounds evidence that does indeed support
the defendants’ claims about what they believed. The
cynicism of their claimed beliefs does not do them much
credit, but on this record one is left with a queasy feeling
that the deeper cynicism may be in the system within
which they operate.
People like the defendants operate at the seamiest
margin of amateur sports. They (and the athletes and
their families who succumb to their offers) are violating
the rules by which the universities, cynically or sincerely,

86a
Appendix A
have agreed to be bound — rules of which the athletes
are well aware, and with which they are required to
represent that they have complied. And such violations
are not victimless. Only a few athletes have the talent
to skip the college game and succeed at the highest
professional level. A few more are realistic candidates for
such success, if they are properly trained and groomed
by the opportunity to compete in college programs. Most
who compete in college have an opportunity to earn a
degree that will stand them in good stead even if they do
not play professional sports — but only if they can pay for
their education with their labor on behalf of the school’s
teams. But all are vulnerable to losing those scholarships,
and having their vocational training disrupted, if they
are publicly known to have violated the rules. Whether
or not those who bribe aspiring athletes to sign onto a
particular college’s basketball program have defrauded
the universities, they expose the youthful athletes to a
high degree of risk.
It is not for judges to decide whether it makes sense
to use federal law enforcement revenues to pursue the
relatively low-level agents of corruption in this system. Our
only responsibility is to decide whether the defendants have
been tried and convicted on the charges brought against
them in accordance with the law, including the applicable
rules of evidence. The questions in this case are very
close, and the experienced trial judge and my colleagues
on this panel have honorably applied the governing rules.
Our disagreements are narrow, and involve only a few of
the many close evidentiary calls forced on the judge by
the nature of the charges. Nevertheless, for the reasons

87a
Appendix A
set forth above, I respectfully dissent from those portions
of the majority opinion that uphold those rulings that I
find erroneous and prejudicial, and from the judgment of
the court insofar as it affirms Gatto’s conviction on count
three and Dawkins’s convictions on counts one and two.

88a
Appendix B EXCERPT OF THE
APPENDIX B — TRANSCRIPT
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK, DATED
OCTOBER 22, 2018
[1813]UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
17 Cr. 686 (LAK)
UNITED STATES OF AMERICA,
v.
JAMES GATTO, a/k/a “Jim,” MERL CODE,
CHRISTIAN DAWKINS,
Defendants.
October 22, 2018
9:32 a.m.
Before:
HON. LEWIS A. KAPLAN,
District Judge
and a Jury
***
[1842]made as part of a fraudulent scheme in the
expectation that it would be relied upon by the university
in question. If you find beyond a reasonable doubt that a
false representation was made by an individual who did

89a
Appendix B
not know that the representation was false, you must find
that the individual made that false representation as part
of a fraudulent scheme in the expectation that it would be
relied upon by the university in question. In either case,
you must concentrate on whether there was such a scheme,
not on the consequences of the scheme.
I instruct you further that in determining whether
a scheme to defraud existed, it is irrelevant whether
you believe that the university in question might have
discovered the fraud if it had looked more closely or probed
more extensively. A victim’s negligence or gullibility in
failing to discover a fraudulent scheme is not a defense to
wire fraud. On the other hand, a finding that a university
intentionally turned a blind eye to certain kinds of
representations when making decisions about scholarships
may be relevant to the materiality of the representations.
Finally, the government, in order to satisfy this first
element of substantive wire fraud, must prove beyond a
reasonable doubt that the alleged scheme contemplated
depriving the victim -- that is to say, the University of
Louisville in Count Two and the University of Kansas in
Count Three – of money or property. It is no doubt obvious
that property [1843]includes tangible property interests,
such as physical possession of an object or of money. But
a victim can be deprived of money or property also when
it is deprived of the ability to make an informed economic
decision about what to do with its money or property -- in
other words, when it is deprived of the right to control the
use of its assets. I instruct you that a victim’s loss of the
right to control the use of its assets constitutes deprivation

90a
Appendix B
of money or property if, and only if, the scheme could have
caused or did cause tangible economic harm to the victim.
A scheme to defraud does not have to be shown by
direct evidence. It can be established by all the facts and
circumstances in a case.
Now we move on to the second element of substantive
wire fraud. It is a lot shorter.
The second element that the government must prove
beyond a reasonable doubt to establish substantive wire
fraud is that the defendant you are considering knowingly
and willfully participated in the scheme, device, or artifice
to defraud, with knowledge of its fraudulent nature and
with specific intent to defraud.
To act “knowingly” means to act intentionally and
voluntarily, and not because of ignorance, mistake,
accident or carelessness.
To act “willfully” means to act with knowledge that
[1844]one’s conduct is unlawful and with the intent to do
something the law forbids, that is to say, with the bad
purpose to disobey or disregard the law. “Unlawfully”
simply means contrary to law. In order to know of an
unlawful purpose, a defendant does not have to know
that he was breaking any particular law or any particular
rules. He needs to have been aware only of the generally
unlawful nature of his actions.

91a
Appendix B
To prove that the defendant you are considering acted
with specific intent to defraud, the government must prove
that he acted with intent to deceive for the purpose of
depriving the relevant University of something of value. As
I mentioned earlier, that may include the right to control
money or property if the loss of the right to control money
or property could have resulted or did result in tangible
economic harm to the university. The government doesn’t
have to prove that the university actually was harmed,
only that the defendant you are considering contemplated
some actual harm or injury to the university in question.
In addition, the government need not prove that the intent
to defraud was the only intent of the defendant you are
considering. A defendant may have the required intent
to defraud even if the defendant was motivated by other
lawful purposes as well.
To participate in a scheme means to engage in it by
taking some affirmative step to help it succeed. Merely
associating with people who are participating in a
scheme -****

92a
Appendix C
APPENDIX C — MEMORANDUM
OPINION OF
THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF NEW YORK,
FILED FEBRUARY 28, 2018
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
17-cr-0686 (LAK)
UNITED STATES OF AMERICA,
-againstJAMES GATTO, et al.,
Defendants.
February 28, 2018, Decided
February 28, 2018, Filed
MEMORANDUM OPINION
Lewis A. K aplan, District Judge.
This matter is before the Court on defendants’ joint
motion to dismiss the indictment. The Court denied the
motion in open court on February 15, 2018, but stated
that it would render an opinion in due course. This is that
opinion.

93a
Appendix C
Facts
The following facts are alleged in the indictment,1
the truth of which the Court is bound to assume when
considering a motion. 2 The Court does not consider “[c]
ontrary assertions of fact by the defendants.” 3
A. The Parties
This indictment charges a conspiracy among
defendants, certain basketball coaches of the Universities
of Louisville and Miami, and certain student basketball
players and/or their families.
Defendant James Gatto is an executive at “Company-1,”
a multi-national corporation that designs and manufactures
shoes, clothing, and accessories for various sports,
including basketball. Company-1 sponsors the athletic
programs of a number of universities with highly ranked
National Collegiate Athletic Association (“NCA A”)
Division I men’s basketball teams.4 During the relevant
period, defendant Gatto oversaw significant components of
1. DI 39 (“Ind.”).
2. United States v. Goldberg, 756 F.2d 949, 950 (2d Cir. 1985);
see also United States v. Nat’l Dairy Prods. Corp., 372 U.S. 29,
33 n.2, 83 S. Ct. 594, 9 L. Ed. 2d 561 (1963); Boyce Motor Lines
v. United States, 342 U.S. 337, 343 n.16, 72 S. Ct. 329, 96 L. Ed.
367 (1952); New York v. Tanella, 374 F.3d 141, 148 (2d Cir. 2004).
3. Goldberg, 756 F.2d at 950.
4. Ind. at ¶ 4.

94a
Appendix C
Company-1’s high school and college basketball programs,
defendant Merl Code consulted for Company-1 on its high
school and college basketball programs, and defendant
Christian Dawkins was an aspiring business manager for
professional athletes. 5
B. NCAA Regulations
The NCAA is a non-profit organization that regulates
athletics for colleges and universities. NCAA member
schools are organized into three separate divisions:
Divisions I, II, and III. Division I is the “highest level
of intercollegiate athletics sanctioned by the NCAA.”6
Schools with Division I athletics programs typically have
the largest athletics budgets and offer the most athletic
scholarships, subject to NCAA regulations.7
One of the hallmarks of the NCAA is that the students
who compete in NCAA programs must be amateur, rather
than professional, athletes. To preserve the amateur
status of any student-athlete that plays for an NCAA
Division I school, the schools and current and prospective
student-athletes are subject to certain rules, including
that (1) any financial assistance to student-athletes other
than from the school itself or from the athletes’ parents or
legal guardians is prohibited unless expressly authorized
by the NCAA, and (2) student-athletes, prospective
student-athletes, and their relatives are prohibited from
5. Id. at ¶¶ 7-9.
6. Id. at ¶ 12.
7. Id. at ¶ 13.

95a
Appendix C
accepting any benefits, including money, travel, clothing or
other merchandise, directly or indirectly from a financial
advisor or an agent (which is defined broadly to include
anyone “who, directly or indirectly . . . seeks to obtain any
type of financial gain or benefit . . . from a student-athlete’s
potential earnings as a professional athlete”). 8
Student-athletes who are recruited in violation
of NCAA rules are ineligible to play. 9 In addition, the
indictment lists various penalties to which any school or
individual found to be in violation of an NCAA rule may be
subject, including limitations on the school’s participation
in post-season play in the relevant sport, limitations on
the school’s funding from the NCAA, and various financial
penalties.10
Accordingly, student-athletes and coaches are
required to make certain representations related to
NCAA rule violations to the Division I schools for whom
they play and work. Student-athletes are required
annually to attest to their amateur status and to report
any violations of NCAA rules involving the student-athlete
and the school.11 Coaches are required to certify annually
that they have reported to their school any knowledge of
NCAA rule violations involving the school.12
8. Id. at ¶¶ 14-16 (internal quotation marks omitted).
9. Id. at ¶ 17.
10. Id. at ¶ 23.
11. Id. at ¶ 20.
12. Id. at ¶ 21.

96a
Appendix C
C. The Alleged Scheme
The indictment alleges that defendants and their coconspirators schemed to pay bribes to certain high school
basketball players bound for NCAA Division I universities
and/or their families in exchange for commitments by the
students to matriculate at specific universities and then
retain Dawkins’ services and sign with Company-1 once
they turned professional.
The allegations against defendants specifically relate
to the University of Louisville and the University of Miami,
both Division I schools.13 With respect to the University
of Louisville, the indictment alleges that defendants
conspired to funnel approximately $100,000 from
Company-1 to the family of a high school basketball player
who had not yet committed to a particular university.
The $100,000 payment was to be made to the family
indirectly through a third-party in four installments, but
the student’s family received only one such installment
payment before defendants were arrested.14 Similarly,
the indictment alleges that defendants conspired to funnel
approximately $150,000 to a high-school basketball player
and/or his family at the request of certain coaches at the
13. Id. at ¶ 12.
14. Id. at ¶¶ 24-26. Defendants and certain coaches at the
University of Louisville allegedly conspired also to pay a similar
bribe the family of another prospective student. Although
the money was transferred from Company-1 to Dawkins, the
indictment does not allege that the student or his family received
the funds. Id. at ¶¶ 27-28.

97a
Appendix C
University of Miami in order to induce that player to
matriculate at the University of Miami.15
Defendants are charged with conspiring to use
interstate or foreign wires in furtherance of the scheme
to defraud by making, agreeing to make, and concealing
bribe payments to the high-school basketball players and/
or their families in exchange for the players’ commitments
to play basketball at the University of Louisville and the
University of Miami, thereby (1) causing the universities
to agree to provide athletic scholarships to studentathletes who in fact were ineligible to compete as a result
of the bribe payments, and (2) depriving the universities
of significant and necessary information regarding the
players’ and coaches’ non-compliance with NCAA rules,
thereby interfering with the universities’ ability to control
the use of their assets, including the decision of how to
allocate a limited amount of athletic scholarships, and
exposing the universities to tangible economic harm,
including monetary and other penalties imposed by the
NCAA.16
Discussion
Although they do not put it in precisely these terms,
defendants move to dismiss the indictment pursuant to
Fed. R. Crim. P. 12(b)(3)(B)(v) and 47. They contend that
the indictment fails to allege a crime because it fails to
allege that:
15. Id. at ¶¶ 30-32.
16. Id. at ¶¶ 3, 36-37.

98a
Appendix C
• The purpose of the alleged scheme was to injure
the universities. To the contrary, defendants claim
that the indictment alleges that their goal was “to
help them.”
• The defendants “sought to obtain money or property
for themselves from . . . the alleged victims.”
• The defendants’ purpose was to deprive the
universities of money or property.
• The alleged scheme “was to be accomplished by
means of material misrepresentations.”17
These arguments disregard allegations contained
in the indictment, depend upon assertions outside the
indictment, are premature, or all three.
A. Criminal Rule 7
Fed. R. Crim. P. 7(c)(1) states that an indictment
“must be a plain, concise, and definite written statement
of the essential facts constituting the offense charged.”
“To satisfy the pleading requirements of Fed. R. Crim. P.
7(c)(1), an indictment need do little more than to track the
language of the statute charged and state the time and
place (in approximate terms) of the alleged crime.”18 It is
17. DI 59 (“Def. Br.”), at 1-3 (second emphasis added).
18. United States v. LaSpina, 299 F.3d 165, 177 (2d Cir. 2002)
(quoting United States v. Stavroulakis, 952 F.2d 686, 693 (2d Cir.
1992) (quoting United States v. Tramunti, 513 F.2d 1087, 1113 (2d
Cir. 1975))) (internal quotation marks omitted) .

99a
Appendix C
sufficient if the indictment, “first, contains the elements of
the offense charged and fairly informs a defendant of the
charge against which he must defend, and, second, enables
him to plead an acquittal or conviction in bar of future
prosecutions for the same offense.”19 The “indictment
‘need not be perfect, and common sense and reason are
more important than technicalities.’” 20
Defendants here are charged with conspiracy to
commit wire fraud. The federal wire fraud statute imposes
criminal penalties on anyone who:
“[H]aving devised or intending to devise
any scheme or artifice to defraud, or for
obtaining money or property by means of
false or fraudulent pretenses, representations,
or promises, transmits or causes to be
transmitted by means of w ire, radio, or
television communication in interstate or
foreign commerce, any writings, signs, signals,
pictures, or sounds for the purpose of executing
such scheme or artifice.” 21

19. Id. (quoting Hamling v. United States, 418 U.S. 87, 117,
94 S. Ct. 2887, 41 L. Ed. 2d 590 (1974)) (internal quotation marks
omitted) .
20. United States v. Stringer, 730 F.3d 120, 124 (2d Cir.
2013) (quoting United States De La Pava, 268 F.3d 157, 162 (2d
Cir. 2001)).
21. 18 U.S.C. § 1343.

100a
Appendix C
The 23-page indictment in this case tracks the language
of Section 1343, which is incorporated by reference into
Section 1349.22 As discussed below, the indictment contains
also extensive factual allegations as to when, how and
with whom the alleged scheme was undertaken. These
allegations are more than sufficient to inform defendants
of the particulars of the alleged conspiracy in which they
are charged with having participated.
B. Injury to the Universities as Object of the Alleged
Scheme
The elements of wire fraud include “(1) a scheme to
defraud (2) to get money or property (3) furthered by
the use of interstate . . . wires.” 23 In order to establish a
“scheme to defraud,” the government must show “that
some actual harm or injury was contemplated by the
schemer.” 24
Defendants contend that this indictment fails by
reason of the lack of any allegation that the purpose of
the fraudulent scheme was to injure the universities that
allegedly were its victims. Indeed, they maintain that the
indictment asserts that the object of the alleged scheme
22. See § 1349 (“Any person who . . . conspires to commit any
offense under this chapter shall be subject to the same penalties
as those prescribed for the offense, the commission of which was
the object of the . . . conspiracy.”).
23. Def. Br. at 12 (quoting United States v. Autuori, 212 F.3d
105, 115 (2d Cir. 2000)) (internal quotation marks omitted).
24. United States v. Regent Office Supply Co., 421 F.2d 1174,
1180 (2d Cir. 1970) (emphasis omitted).

101a
Appendix C
was to assist the universities by attracting basketball
talent. But the defendants ignore some of the indictment’s
allegations and misconstrue others.
The indictment alleges that the defendants and their
co-conspirators, who included, among others, certain
basketball coaches as well as prospective basketball
players and/or their family members, “conspired . . . to
obtain athletic-based financial aid for the student-athletes
from [the] . . . universities .” 25 It alleges in particular
that the objects of the conspiracy included “causing the
universities to agree to provide athletic scholarships
to student-athletes who . . . were ineligible to compete
as a result of the bribe payments.” 26 Those allegations,
the truth of which must be assumed for purposes of this
motion, are fatal to this branch of defendants’ motion.
Nor may these allegations be ignored because the
indictment alleges that (a) payments to certain prospects
or their families were intended to “assist” one or more
coaches in securing the prospects’ commitments to the
schools, 27 (b) the plan to funnel money to a particular
University of Louisville prospect was developed “at the
request and with the assistance of one or more coaches
at the University of Louisville,” 28 and (c) defendant Gatto
told defendant Code that he already had learned from a
coach at the University of Miami about the university’s
25. Ind. at ¶ 3.
26. Id. ¶ 36
27. Id. ¶¶ 24, 30.
28. Id. ¶ 25.

102a
Appendix C
“request for assistance in securing” the commitment of a
particular student to attend that institution. 29 Of singular
importance, the indictment makes abundantly clear that
NCAA rules prohibited the payments, 30 that the coaches
and other conspirators concealed the bribes from the
universities “in order for the scheme to succeed and for
the student athletes to receive athletic scholarships,” 31
and that the universities stood to suffer substantial
penalties if the payments were uncovered. 32 Assuming
proof of these facts, a jury would be entitled to infer that
the coaches were not acting solely in the interests of their
employers. Indeed, the government would be entitled to
prove that the coaches had substantial personal interests
— financial, reputational, career, and competitive interests
— in fielding the most successful teams possible and
that those interests were not entirely aligned with the
interests of their employers. In other words, it is quite
possible that the coaches’ motives were either entirely
selfish or mixed — combining desires to “help” their
schools by fielding winning basketball teams with actions
contrary to their schools’ interests because they violated
the school’s policies and subjected the schools to a risk of
severe penalties that the schools would not have run had
they known all of the facts.
The law on this point is abundantly clear. “[T]he
principle that directors and officers may act on behalf of a
29. Id. ¶ 32(a).
30. Id. ¶¶ 15-18.
31. Id. ¶ 29; see also id. ¶ 33.
32. Id. ¶ 23.

103a
Appendix C
corporation does not extend to acts of self-enrichment.” 33
Thus, the defendants’ attempt to equate the actions and
statements of the coaches with actions of the universities
is at best premature. Whether the government ultimately
can establish that the coaches did not act in the sole and
exclusive interests of their employers34 is a matter for
trial, not a Rule 12 motion.
This conclusion is consistent also with the case law to
which defendants cite.
In United States v. D’Amato, the Second Circuit
overturned a mail fraud conviction for insufficient evidence
that the defendant had intended to harm the corporation
he had been charged with defrauding. The court reasoned
that “a person hired to perform services for [a] corporation
. . . cannot be found to intend to harm a corporation or its
shareholders through otherwise lawful misleading conduct
if he or she follows the instructions of an appropriate
corporate agent who appears to be unconflicted and
acting in good faith.” 35 But it is premature for defendants
in this case to challenge the indictment on the theory that
the basketball coaches were “unconflicted and acting in
good faith.” 36
33. United States v. D’Amato, 39 F.3d 1249, 1258 (2d Cir.
1994).
34. The Court expresses no view on whether such proof would
be required in order to convict.
35. D’Amato, 39 F.3d at 1258 (emphasis added).
36. Indeed, it is telling that the defendant in D’Amato
challenged the sufficiency of the evidence following trial, not the
sufficiency of the indictment in which he was charged

104a
Appendix C
United States v. Braunstein, 37 a Ninth Circuit case
on which defendants rely, is readily distinguishable.
The defendant in that case was a computer distributor
who bought computers from ALAC, a Latin American
subdivision of Apple, Inc. Although the defendant
ostensibly was obliged to sell the computers only to
distributors who would resell them in Latin America, he in
fact sold the computers to a distributor who resold them in
the United States at below-market prices. The indictment
eventually was dismissed voluntarily, but the Ninth Circuit
awarded attorneys’ fees to the defendant after concluding
that “ALAC could not be deceived about practices that it
actively endorsed” and, indeed, that the government “had
reason to believe . . . that employees at ALAC knowingly
sold computer products to distributors who resold the
same products . . . outside of Latin America.” 38
This stage of these proceedings is a dramatically
different case from Braunstein. The indictment alleges
specifically that defendants and their co-conspirators
concealed their scheme from the universities. That
assertion is taken as true for purposes of this motion. And
it at least permits the inference that the defendants well
knew that responsible, unconflicted university officials
had not and would not have approved their actions.
Accordingly, defendants’ challenge on this point fails.

37. 281 F.3d 982 (9th Cir. 2002).
38. Id. at 996-97.

105a
Appendix C
C. Obtaining Money or Property from the Universities
Defendants contend also that the indictment should
be dismissed because it fails to allege that defendants
“schemed to obtain money or property from [the
Universities of ] Louisville or Miami.” 3 9 But they
misconstrue the law in the Second Circuit and ignore
allegations of the indictment.
Defendants rely principally on United States v.
Walters, 40 in which the defendant, an aspiring sports
agent, was convicted of mail fraud after he bribed college
football players to let him represent them upon turning
professional. The Seventh Circuit reversed the conviction.
It held that although a jury could have concluded that
the colleges would have saved athletic scholarship funds
but for the scheme, the colleges “were not out of pocket
to Walters” because “he planned to profit by taking a
percentage of the players’ professional incomes, not of
their scholarships.”41 It added that “only a scheme to
obtain money or other property from the victim by fraud
violates § 1341.”42
The fraud theory in Walters bears some superficial
resemblance to this case in that the government alleged
that the defendant in Walters had caused the universities
39. Def. Br. at 18 (emphasis in original).
40. 997 F.2d 1219 (7th Cir. 1993).
41. Id. at 1224 (emphasis in original).
42. Id. at 1227.

106a
Appendix C
to pay scholarship funds to athletes who had become
ineligible as a result of the their agency contracts with
defendants. But Walters neither controls nor is persuasive
here for two independent reasons.
1.

Distinguishing Walters on the Law

Setting aside for the moment the factual distinctions
between Walters and this case, a defendant in this circuit,
“’does not need to literally “obtain” money or property to
violate the [mail and wire fraud] statute[s].’”43
In Porcelli I44, the Second Circuit upheld the mail
fraud conviction of a gas station operator, Porcelli, who
failed to remit sales tax on the gas that he sold to New
York State. The government had not proved that Porcelli
actually collected the taxes that he was obliged to pay to
the State, but the Circuit nonetheless held that New York
State’s intangible interest in the unpaid sales tax was
state property within the ambit of the mail fraud statute
and that “Porcelli . . . obtained cash . . . whether or not
he actually collected the sales tax on his gasoline sales”
because “[i]f he did not collect the tax, then he obtained
43. United States v. Finazzo, 850 F.3d 94, 106 (2d Cir. 2017)
(quoting Porcelli v. United States, 404 F.3d 157, 162 (2d Cir.
2005) (“Porcelli IV”)); see also Porcelli IV, 404 F.3d at 162-63
(acknowledging that even if the court’s interpretation of the
statute fell outside the “plain meaning” of the mail fraud statute,
Congress, which had amended the mail fraud statute four times
since the Second Circuit initially had so interpreted the mail fraud
statute, “is deemed to have relied on our construction”).
44. 865 F.2d 1352 (2d Cir. 1989) (“Porcelli I”).

107a
Appendix C
funds that an honest retailer, selling for the same price,
would have remitted to the State.”45 Porcelli thus had
deprived the State of property because he was “obliged
to pay the tax whether or not he collected it from the
customers.”46
In a subsequent challenge to his conviction, Porcelli
argued that (1) the Supreme Court’s then-recent decision
in Scheidler v. National Organization for Women, Inc.,47
which construed the Hobbs Act to require that a defendant
actually “obtain” money or property from the alleged
victim, should be carried over to the mail fraud statute,
and (2) in the context of his case, it was impossible for
Porcelli to have obtained money or property because
he “already possessed the money or property of which
he was convicted of scheming to acquire.”48 The Second
Circuit rejected that argument because “in contrast to the
Hobbs Act, neither the mail or wire fraud statute requires
that a defendant ‘obtain’ property before violating the
statute.”49 In other words, regardless of the verbiage used
in Porcelli I — that is, “[i]f he did not collect the tax, then
he obtained funds that an honest retailer, selling for the
same price, would have remitted to the State” — Porcelli
had committed mail fraud by depriving the State of money
45. Id. at 1359-60.
46. Id. at 1361.
47. 537 U.S. 393, 123 S. Ct. 1057, 154 L. Ed. 2d 991 (2003).
48. Porcelli IV, 404 F.3d at 161-62.
49. Id. at 162 (internal quotation marks and citations omitted).

108a
Appendix C
or property to which it was entitled, regardless of whether
or not Porcelli ever obtained the money for himself.
The Second Circuit extended this reasoning to the
wire fraud statute in United States v. Males, 50 in which it
upheld the wire fraud conviction of a defendant who had
represented to an FBI agent who had posed as a potential
investor, that he worked for a firm called the Bailey
Group and promised the agent “exorbitant returns” on his
investments if the agent (a) agreed to allow the defendant
to freeze or reserve the agent’s account in favor of the
Bailey Group and (b) allowed Bailey Group’s traders to
be signatories on the account. On appeal, the defendant
argued that the jury should have been instructed that it
could convict him of wire fraud only if it found that he had
intended to obtain the victim’s money — in other words,
that it was not enough that Males intended to freeze
the agent’s account temporarily without transferring
any money to himself or removing any money from
the account permanently. The Second Circuit rejected
that argument. It affirmed the conviction and held that
“[f]or purposes of establishing this element under § 1343
. . . it is sufficient that a defendant’s scheme was intended
to deprive another of property rights, even if the defendant
did not physically ‘obtain’ any money or property by taking
it from the victim.”51 That such deprivation may have been
intended to be only temporary was of no moment. As the
Circuit concluded, “The requirement under § 1343 that the
defendant devise a scheme or artifice for obtaining money
or property is satisfied where a defendant fraudulently
50. 459 F.3d 154 (2d Cir. 2006).
51. Id. at 158.

109a
Appendix C
obtains the use of another person’s money or property for
a period of time, using it for his own personal profit, and
depriving the owner of the ability to do so.”52 Here again,
the defendant was convicted of wire fraud on the basis
that he deprived the fraud victim of money or property
by cutting off its access to that money or property, not by
obtaining the money or property for himself.
Finally, in United States v. Finazzo, 53 the Second
Circuit affirmed the district court’s instructions to the
jury that the property of which a victim of wire or mail
fraud must be deprived may include “intangible interests
such as the right to control the use of one’s assets” and
that the right to control one’s assets is “injured when
a victim is deprived of potentially valuable economic
information it would consider valuable in deciding how
to use its assets.”54 In Finazzo, the defendant, a former
merchandising executive at Aéropostale, Inc., had caused
Aéropostale to use a certain clothing vendor, South Bay,
as its supplier of T-shirts and fleeces. In exchange, the
defendant received kickbacks from South Bay’s profits.
The court upheld Finazzo’s conviction of mail and wire
fraud on the basis that he had deprived Aéropostale of its
“right to control use of its assets.”55

52. Id. at 158-59 (emphasis in original).
53. 850 F.3d 94 (2d Cir. 2017).
54. Id. at 108; see also id. at 111 (concluding that “[d]epriving
a victim of ‘potentially valuable’ information necessarily creates
a risk of tangible economic harm” (emphasis omitted)).
55. Id. at 96-97.

110a
Appendix C
Accordingly, in the Second Circuit, one may be
convicted of wire fraud without the victim being “out of
pocket” to the defendant. The question is not whether
defendants are alleged to have obtained money or property
from the universities, but whether they are alleged to have
conspired to deprive the universities of money or tangible
or intangible property. 56 This indictment thus adequately
charges a conspiracy to use the wires in furtherance of
a scheme by which student-athletes and/or their families
— alleged co-conspirators all — would obtain athletic
scholarships, thereby depriving the victims of money or
other property.
And it alleges also that defendants and their coconspirators conspired to “defraud[] the universities . . .
by depriving the universities of significant and necessary
information regarding the non-compliance with NCAA
rules by the relevant student-athletes and coaches,”
thereby:
“[I]nterfer[ing] with the universities’ ability
to control their assets and creat[ing] a risk of
tangible economic harm to the universities,
56. The Court is not persuaded by defendants’ repeated
citations to dicta in Skilling v. United States, 561 U.S. 358, 400,
130 S. Ct. 2896, 177 L. Ed. 2d 619 (2010) (citation omitted), that
“[u]nlike fraud in which the victim’s loss of money or property
supplied the defendant’s gain, with one the mirror image of the
other, the honest-services theory targeted corruption that lacked
similar symmetry.” As discussed above, the Second Circuit
subsequently has held explicitly that the deprivation of the right to
control one’s assets can serve as a basis for criminal liability under
the mail and wire fraud statutes. See Finazzo, 850 F.3d at 108-111.

111a
Appendix C
including, among other things, decision-making
about the distribution of their limited athletic
scholarships; the possible disgorgement of
certain profit-sharing by the NCAA; monetary
fines; restrictions on athlete recruitment and
the distribution of athletic scholarships; and
the potential ineligibility of the universities’
basketball teams to compete in NCAA programs
generally, and the ineligibility of certain
student-athletes in particular.”57
Finazzo, in which the Second Circuit endorsed the
“right to control” theory, governs here.
2.

Distinguishing Walters on the Facts

Walters is distinguishable also on its facts.
In Males, the Second Circuit described Walters as
holding that “without a showing of the defendant’s intent
to obtain money or property from the universities or the
NCAA, the necessary connection between his actions and
his victims’ property was too attenuated to establish mail
fraud.”58 This followed because the defendant in Walters
appealed his conviction only of the substantive crime of
mail fraud; there was no conspiracy charge and the Circuit
refused to consider the government’s alternative theory
that Walters was guilty as an aider and abettor. 59
57. Ind. at ¶ 3, see also id. at ¶ 37.
58. Males, 459 F.3d at 159.
59. Walters, 997 F.2d at 1227 (rejecting government’s
theory that Walter aided and abetted the students in defrauding

112a
Appendix C
In contrast, defendants in this case are alleged to
have conspired with prospective basketball players and/or
their families, who in turn are alleged to have “obtain[ed]
athletic-based financial aid for the student-athletes from
NCAA Division I universities through false and fraudulent
means.”60 Accordingly, defendants’ challenge fails also
to the extent defendants argue that the indictment fails
to allege a “necessary connection” between defendants’
actions and the universities’ scholarships.61
the universities because “the indictment charged a scheme by
Walters to defraud; it did not depict Walters as an aide de camp
in the students’ scheme,” because the aiding and abetting theory
had not been argued to the jury, and because of “the difficulty
of believing that the students hatched a plot to employ fraud to
receive scholarships that the universities had awarded them long
before Walters arrived on the scene, and the lack of evidence that
the students knew about or could foresee any mailings” (emphasis
in original)).
60. Ind. at ¶ 3; see also id. ¶ 36.
The Court is unmoved by defendants’ argument that “the
Government now concedes that, at least with respect to the
‘University of Miami scheme,’ the family members of the student
were definitely not scheme participants.” Even if the government
had so conceded in a disclosure made subsequent to the indictment,
defendants may not “challenge the sufficiency of the indictment by
referencing documents and alleged facts that fall outside the four
corners of the indictment . . . . It is axiomatic that the allegations
in the indictment control the analysis at this stage of the case.”
United States v. Binday, 908 F. Supp. 2d 485, 491 (S.D.N.Y. 2012)
(citing Goldberg, 756 F.2d at 950).
61. See Def. Br. at 26 (“[T]he scholarships the Universities
were allegedly deprived of were never, in any sense, obtained by,

113a
Appendix C
D. Depriving Universities of Money or Property
Defendants next assert that the indictment fails to
“allege that the object of Defendants’ fraudulent scheme
was to deprive the Universities of money or property.”62
They read the indictment to say that the alleged scheme
had “the effect of potentially rendering the athletes
ineligible to compete in college sports under NCAA rules”
but “does not claim that causing these deprivations was the
objective” of the scheme.63 Defendants argue further that
the indictment “identifies only potential harms that, in
fact, would have been undesirable to Defendants — e.g., a
determination that a scholarship recipient was ineligible to
compete for the Universities, or the imposition of penalties
on the Universities by the NCAA” and that the “alleged
deprivations were not the goal of Defendants’ scheme, but
rather inadvertent consequences that would come to pass
only if the scheme was uncovered.”64
This argument also is without merit. It is true that
“[t]he ‘essential elements of’ [a mail or wire fraud violation]
are ‘(1) a scheme to defraud, (2) money or property as
the object of the scheme, and (3) use of the mails or wires
to further the scheme.’”65 As discussed above, however,
used by, or in the possession of, Defendants.”).
62. Id. at 28 (emphasis in original).
63. Id. at 29.
64. Id. at 30-31 (internal quotation marks and citations
omitted).
65. United States v. Binday, 804 F.3d 558, 569 (2d Cir. 2015)

114a
Appendix C
this indictment alleges that it was “part and object of
the conspiracy” to “caus[e] the universities to agree to
provide athletic scholarships to student-athletes who,
in truth and in fact, were ineligible to compete” and to
“conceal[] bribe payments to high school student-athletes
and/or their families . . . , which deprived the University
of Louisville and the University of Miami of their right to
control the use of their assets.”66 The indictment therefore
is sufficient.
Defendants’ reliance on two civil RICO cases is
confounding. In any event, both are readily distinguishable.
In Tymoshenko v. Firtash, 67 the district court
dismissed a civil RICO complaint predicated on wire
fraud. The court reasoned that defendants, who allegedly
had proposed sham real estate investments, were not
alleged to have used “their misrepresentations to target
a third party’s money or property,” but rather “to create
(emphasis added) (quoting Fountain v. United States, 357 F.3d
250, 255 (2d Cir. 2004)).
66. Ind. at ¶¶ 36-37.
Defendants’ argument that the indictment fails because
the deprivations alleged represented mere “potential harms” is
unpersuasive. See Binday, 804 F.3d at 576-77 (“The indictment
need not allege . . . that the specified harms had materialized . . .
or were certain to materialize in the future. Rather, it suffices to
prove that the defendants’ misrepresentations deprived the [fraud
victims] of economically valuable information that bears on their
decision-making.”).
67. 57 F. Supp. 3d 311 (S.D.N.Y. 2014).

115a
Appendix C
the appearance that they were engaged in legitimate
business activities.”68 The court found that the complaint
failed to adequately plead wire or mail fraud because it
failed to allege that the object of the alleged fraudulent
conduct was money or property.69 The relevance of the
case here is not apparent.
In Westchester County Independence Party v.
Astorino,70 the district court dismissed a civil RICO claim
brought by officials of a county political party that a group
of county executives had organized a fraudulent scheme to
rig the outcome of the party’s primary election by inducing
and coercing individuals to switch their party affiliations
and enlist in that political party. The court concluded that
control of a political party “cannot be considered property
in the hands of the victim.” 71
But this case does not involve control of a political
party. Here, the alleged misrepresentations and
omissions, i.e. the concealment of the NCA A rules
violations, allegedly were made in order to obtain athletic
scholarships for certain prospective basketball players
and to deprive the universities of their right to control
their assets. Defendants do not dispute, nor could they,
that both athletic scholarships and the right to control
one’s assets constitute “money or property” for purposes
of the wire fraud statute.
68. Id. at 321 (internal quotation marks omitted).
69. Id.
70. 137 F. Supp. 3d 586 (S.D.N.Y. 2015).
71. Id. at 603.

116a
Appendix C
E. False Representations of Material Fact
Finally, defendants argue that the indictment “fails to
allege that Defendants agreed to a scheme to defraud the
Universities ‘by means of false or fraudulent pretenses,
representations and promises.’” 72 They are mistaken.
The indictment alleges that (1) “the defendants and
their co-conspirators knew that, for the scheme to succeed
and the athletic-scholarships to be awarded such that the
athletes could play at an NCAA Division I university, the
student-athletes and coaches described herein had to
falsely certify to the universities that they were unaware
of any rules violations, including the illegal payments;”73 (2)
“the defendants, and one or more coaches at the University
of Louisville, made, intended to make, or caused or
intended to cause others to make false certifications to
the University of Louisville and the NCAA about the
existence of the payments and the known violations of
NCAA rules;” 74 and (3) “the defendants, and one or more
coaches at the University of Miami, intended to make, or
intended to cause others to make, false certifications to the
University of Miami and the NCAA about the existence of
the payments and the known violations of NCAA rules.” 75
The indictment details also the various certifications that
student-athletes and coaches were required to make
72. Def. Br. at 31 (quoting 18 U.S.C. § 1343).
73. Ind. ¶ 3.
74. Id. at ¶ 29.
75. Id. at ¶ 33.

117a
Appendix C
pursuant to NCAA rules.76 These allegations are sufficient
to allege that defendants agreed to a scheme to defraud
the universities by means of fraud.
Defendants nonetheless argue that the indictment
is deficient because (1) it “does not allege any facts to
support its contention that a certification from one of these
students affirming that he was ‘unaware of any [NCAA]
rules violations’ would be ‘false,’”77 and (2) the alleged false
certifications by the coaches are not alleged to be material
because (i) “[t]he allegedly false certifications . . . that they
were unaware of NCAA violations could not possibly have
affected their own recruiting decisions,” and (ii) it is not
alleged that “the Universities would have made a different
decision but for the coaches’ ‘false’ certifications.” 78
As to falsity, the indictment alleges that “student
athletes and/or their family members” were among
the co-conspirators who knew that the alleged false
certifications would have to be made to the universities.
The use of the phrase “and/or” is immaterial at this stage.
Moreover, defendants’ reliance on United States v. Pirro79
is misplaced.
In Pirro, the Second Circuit ordered dismissal of a
count in an indictment that charged the defendant with
having failed to disclose his ownership interest in a
76. Id. at ¶¶ 20-21.
77. Def. Br. at 32.
78. Id. at 33-34.
79. 212 F.3d 86 (2d Cir. 2000).

118a
Appendix C
company a tax return. It reasoned that the government
merely had alleged the defendant’s omission of an
“ownership interest,” rather than his “share ownership,”
and that it was not clear that defendant had a legal
duty to disclose an ownership interest other than share
ownership. 80 It therefore held that the defendant “was
not adequately informed of the nature of the accusation
against him, as is his right under the Sixth Amendment”
because “[t]he indictment allege[d] the omission of a fact
that [the defendant] might not have been required to
report.”81
The issue of sufficient notice is not implicated in
this indictment because the phrase “and/or” includes
the prospective basketball players among the alleged
conspirators. Moreover, it should surprise no one that
knowingly making a false representation in order to get
financial aid from a university could give rise to criminal
liability.
As to materiality, defendants’ argument amounts
essentially to a sufficiency of the evidence challenge,
which is inappropriate at this stage of a criminal case.
A statement is material if it has “‘a natural tendency to
influence, or [be] capable of influencing, the decision of
the decisionmaking body to which it was addressed.’”82
80. Id. at 93.
81. Id. at 95.
82. United States v. Gaudin, 515 U.S. 506, 509, 115 S. Ct. 2310,
132 L. Ed. 2d 444 (1995) (quoting Kungys v. United States, 485 U.S.
759, 770, 108 S. Ct. 1537, 99 L. Ed. 2d 839 (1988)); see also United
States v. Autuori, 212 F.3d 105, 118 (2d Cir. 2000) (“[M]ateriality of

119a
Appendix C
The indictment alleges that universities found in violation
of NCAA rules may be subject to numerous penalties, 83
that students recruited in violation of NCAA rules are
not eligible to participate in NCAA Division I sports, 84
and that the scheme to facilitate the payment of bribes
was concealed from the universities through affirmative
misrepresentations as to the relevant student-athletes’
status as amateurs and as to the conspirators’ knowledge of
NCAA rules violations. 85 If these allegations are proven, a
jury would be entitled to infer that the misrepresentations
were material to the universities. Accordingly, this
question is a matter for trial.
Conclusion
For the foregoing reasons, defendants’ motion to
dismiss the indictment [DI 58] is denied.
SO ORDERED.
Dated: February 28, 2018
/s/ Lewis A. Kaplan
Lewis A. Kaplan
United States District Judge
falsehood is an element of the federal mail fraud, wire fraud, and bank
fraud statutes. To be material, the information withheld either must
be of some independent value or must bear on the ultimate value of
the transaction.” (internal quotation marks and citations omitted)).

83. Ind. at ¶ 23.
84. Id. at ¶ 17.
85. Id. at ¶¶ 3,29, 33, 36-37.

120a
Appendixof
A rehearing of
Appendix d — denial
the united states court of appeals for
the second circuit, filed march 5, 2021
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket Nos: 19-783 (Lead), 19-786 (Con) & 19-788 (Con)
United States of America,
Appellee,
v.
James Gatto, AKA Jim, Merl Code,
Christian Dawkins,
Defendants-Appellants.
order
Appellant, James Gatto, filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered the
request for panel rehearing, and the active members of the
Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/Catherine O’Hagan Wolfe

121a
E statutory
Appendix e —Appendix
relevant
provisions
18 U.S.C. § 1343
§ 1343. Fraud by wire, radio, or television
Whoever, having devised or intending to devise any
scheme or artifice to defraud, or for obtaining money
or property by means of false or fraudulent pretenses,
representations, or promises, transmits or causes to
be transmitted by means of wire, radio, or television
communication in interstate or foreign commerce, any
writings, signs, signals, pictures, or sounds for the
purpose of executing such scheme or artifice, shall be fined
under this title or imprisoned not more than 20 years, or
both. If the violation occurs in relation to, or involving any
benefit authorized, transported, transmitted, transferred,
disbursed, or paid in connection with, a presidentially
declared major disaster or emergency (as those terms are
defined in section 102 of the Robert T. Stafford Disaster
Relief and Emergency Assistance Act (42 U.S.C. 5122)),
or affects a financial institution, such person shall be fined
not more than $1,000,000 or imprisoned not more than 30
years, or both.

122a
Appendix E
18 U.S.C. § 1349
§ 1349. Attempt and conspiracy
Any person who attempts or conspires to commit any
offense under this chapter [18 USCS §§ 1341 et seq.] shall
be subject to the same penalties as those prescribed for
the offense, the commission of which was the object of the
attempt or conspiracy.

